<html>
<title> - FEDERAL EMERGENCY MANAGEMENT AGENCY REFORMS</title>
<body><pre>[Senate Hearing 105-915]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-915


 
              FEDERAL EMERGENCY MANAGEMENT AGENCY REFORMS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                 CLEAN AIR, WETLANDS, PRIVATE PROPERTY
                           AND NUCLEAR SAFETY

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION


                               __________

                             JULY 23, 1998

                               __________

  Printed for the use of the Committee on Environment and Public Works


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 52-633 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED FIFTH CONGRESS

                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
DIRK KEMPTHORNE, Idaho               FRANK R. LAUTENBERG, New Jersey
JAMES M. INHOFE, Oklahoma            HARRY REID, Nevada
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
TIM HUTCHINSON, Arkansas             BARBARA BOXER, California
WAYNE ALLARD, Colorado               RON WYDEN, Oregon
JEFF SESSIONS, Alabama
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director
                                 ------                                

  Subcommittee on Clean Air, Wetlands, Private Property, and Nuclear 
                                 Safety

               JAMES M. INHOFE, North Carolina, Chairman
TIM HUTCHINSON, Arkansas             BOB GRAHAM, Florida
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               BARBARA BOXER, California

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 23, 1998
                           OPENING STATEMENTS

Chafee, Hon. John H., U.S. Senator from the State of Rhode Island     9
Graham, Hon. Bob., U.S. Senator from the State of Florida........ 7, 15
Hutchinson, Hon. Tim., U.S. Senator from the State of Arkansas...     3
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......    20

                               WITNESSES

Ashwood, Albert, Director, Oklahoma Department of Civil Emergency 
  Management, Oklahoma City, OK..................................    17
    Prepared statement...........................................    37
Daub, Hal, Mayor, Omaha, NE, on behalf of the National League of 
  Cities.........................................................    12
    Prepared statement...........................................    31
Myers, Joseph, Director, Florida Division of Emergency 
  Management, Tallahassee, FL, on behalf of the National 
  Emergency Management Association...............................    15
    Prepared statement...........................................    35
Summers, Dan, Director, Department of Emergency Management, New 
  Hanover County, Wilmington, North Carolina.....................    20
    Checklist, Keys to Hurricane Survival........................    54
    Memorandum of understanding, North Carolina agencies and FEMA    40
    Prepared statement...........................................    39
    Resolutions..................................................    48
Witt, James Lee, Director, Federal Emergency Management Agency...     4
    List, Project Impact.........................................    31
    Prepared statement...........................................    25

                          ADDITIONAL MATERIAL

Letters:
    American Public Works Association............................    57
    National League of Cities....................................    34
Statement, State Floodplain Managers.............................    58

                                 (iii)



              FEDERAL EMERGENCY MANAGEMENT AGENCY REFORMS

                              ----------                              


                        THURSDAY, JULY 23, 1998


                                     U.S. Senate,  
         Committee on Environment and Public Works,
 Subcommittee on Clean Air, Wetlands, Private Property, and 
                                            Nuclear Safety,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9 a.m. in room 
406, Senate Dirksen Building, Hon. James M. Inhofe (chairman of 
the subcommittee) presiding.
    Present: Senators Inhofe, Hutchinson, Sessions, Graham, and 
Chafee [ex officio].

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. The committee will come to order.
    We'll call this meeting to order. Unfortunately, as I told 
James Lee, we're going to have one vote at 9:15 and then we may 
have another one at 9:40. If we do, we'll keep going through 
9:30, go over to vote twice and come back. Unfortunately, I 
also have a conflict with the Senate Armed Services Committee 
and I will have to be going back and forth between the two.
    Today's hearing is an oversight hearing on the Federal 
Emergency Management Agency and, specifically, to draft FEMA 
reform legislation. It is drafted by myself, Senator Bob 
Graham, who is the ranking member of this subcommittee. I would 
like to thank him for his work, and I know that down in Florida 
they have lots of problems with extreme weather.
    James Lee, you've had to go to Florida on numerous 
occasions because of hurricanes and floods. In Oklahoma we have 
tornadoes and floods, and then of course our disaster in 
Oklahoma City. This would be a good time to say that James Lee 
Witt has been one of my favorite people for a long time. When 
we had our terrible disaster in Oklahoma City at the Murrah 
Federal Office Building, he spent down a lot of time there, 
which was so appreciated by all of us in Oklahoma.
    Concerning this legislation we are considering today, we 
are going to do a markup in another week or so. It has two main 
titles: the first authorizes the Predisaster Hazard Mitigation 
Program to help communities plan for disasters before they 
happen as opposed to reacting to them afterwards. The second 
title provides for a number of streamlining and cost reduction 
measures, which will help bring in line the funds Congress ends 
up appropriating.
    Project Impact is an innovative program in which FEMA is 
working with local communities to help them prepare for 
disasters. It's interesting when you look and see that so many 
of these things are predictable. I was surprised to find out 
that a percentage of these disasters that can actually be 
predicted. We can be much more effective in disaster aid if we 
are able to prepare for them in advance.
    Our draft legislation authorizes funding for the program 
for 5 years with a sunset at the end of the period. We do have 
our funding in this legislation on the basis of $50, $40, $30, 
and $20 million over that 5-year period. There may be some 
discussion on this and some differences of opinion, but I, as 
chairman of this committee, feel very strongly that we're going 
to be able to adhere to that.
    [The prepared statement of Senator Inhofe follows:]
   Statement of Hon. James M. Inhofe, U.S. Senator from the State of 
                                Oklahoma
    Today's hearing is an oversight hearing on the Federal Emergency 
Management Agency and specifically on draft FEMA reform legislation 
that has been circulated by myself and the subcommittee ranking member 
Senator Graham.
    I would like to thank Senator Graham for his work and effort on 
this issue. I know with the floods and hurricanes in Florida that the 
Federal Emergency Response Program is very important to him and the 
State of Florida. It is also important to the State of Oklahoma with 
our tornadoes and floods. In addition, FEMA was very responsive in the 
aftermath of the Oklahoma City bombing.
    The draft legislation that we are considering today has two main 
Titles. The first authorizes the Predisaster Hazard Mitigation Program. 
This Program helps communities plan for disasters before they strike 
which will reduce the post hazard costs associated with disasters. The 
second Title provides a number of streamlining and cost reduction 
measures which will help bring in' to line the funds Congress ends up 
appropriating through Supplemental Budgets every time we have a major 
disaster.
    I would like to spend a few minutes discussing two key provisions 
in the Predisaster Mitigation Program that I believe are very 
important. They relate to the Project Impact Program which we will be 
hearing more about from Director Witt and the other witnesses.
    Project Impact is an innovative program where FEMA is working with 
local communities to help them prepare for disasters. It began last 
year with seven pilots and was expanded this year to include one 
Project Impact community in every State.
    Our draft legislation authorizes funding for the program for 5 
years, with a sunset at the end of the 5-years. Based on the costs of 
the first 50 pilots, the funds authorized will pay for an additional 
300 communities. Although I do not expect FEMA to fund 300 new Project 
Impact sites. Instead I expect FEMA to work on how best to devolve this 
program to the local communities over the next 5 years. If this program 
is going to be successful than it must evolve into a State and locally 
run program.
    Some may question why a sunset for a program like this is 
necessary, so let me explain. In the legislation we require the GAO to 
conduct a study of the program and report back to the Congress in 3 
years. We also ask FEMA to report back on the success of the program. 
It is my intent that these reports make specific recommendations for 
the next phase of Project Impact. The House legislation only authorizes 
Project Impact for 3 years, I felt it was necessary to authorize the 
program for 5 years which will give Congress plenty of time to 
authorize the next phase of Project Impact.
    This program can not be another Federal bureaucratic program that 
continues to mushroom without clear direction and with escalating 
costs. At this point no one has enough experience to predict how this 
program should look in 5 years. As FEMA says, this is not just another 
big government program, and Congress should not treat it as one.
    The funding levels in the draft bill are consistent with the plan 
to have 50 sites selected this year and another 50 sites next year. The 
current appropriated level for the 50 sites this year was $25 million. 
Next year we authorize up to $50 million. We also include sufficient 
funding over the remaining years to select additional sites if needed 
to highlight specific geographic areas or specific mitigation plans, 
along with the funding needed to begin the Revolution.
    At today's hearing we have with us the Director of FEMA, James Lee 
Witt and representatives of States and local governments who will 
provide their views and perspectives on the draft Bill and FEMA in 
general.
    With that, I would recognize the Senator from Arkansas, 
Senator Hutchinson.

           OPENING STATEMENT OF HON. TIM HUTCHINSON, 
            U.S. SENATOR FROM THE STATE OF ARKANSAS

    Senator Hutchinson. Thank you, Mr. Chairman. I appreciate 
your calling this hearing and your leadership on these issues. 
I want to also take the opportunity to participate today. I 
know it's a very busy, busy time with floor activity. I 
appreciate the hard work that you've done and the hard work 
that Senator Graham has done in producing legislation that 
continues Project Impact which will continue to prepare 
communities to mitigate damages from natural disasters.
    I'll just also add that it's always good to see James Lee 
Witt and, as a fellow Arkansan, be able to visit with him. Like 
you, he's one of my favorite people. I think he's done an 
outstanding job at FEMA and I want to applaud him. When he took 
over FEMA 5 years ago it was less than a respected 
organization. I think probably apart from the IRS it was one of 
the least popular Federal agencies. I think James Lee Witt 
deserves great credit in turning that around. I understand that 
at the time he took that agency, if you wore a FEMA T-shirt or 
jacket it was a dangerous thing to do. I know that's not the 
case anymore.
    Last year when tornadoes ripped through Arkansas, FEMA I 
think gets an A-plus grade. Their reaction was outstanding. 
People were receiving checks within days of the disaster. At 
times, it is difficult to identify owners of property because 
of handshake sales, yet to my knowledge, there was little or no 
complaint in the filling out of requests. It's been an 
outstanding turnaround for what is a very important agency to 
our country. When we had the Fort Smith tornado, it was the 
year prior to that, FEMA was right there and once again did an 
outstanding job.
    Today, we're considering the direction of Project Impact. I 
think it is one of the most important missions today of FEMA. 
In Eastern Arkansas, as Mr. Witt knows, we have one of the 
largest earthquake faults in the country which has the 
potential of destroying nearly everything in its path. Because 
there has been such little activity along that fault for the 
last 150 years, we're faced with a big problem. We have a huge 
fault with a huge destructive potential but it has laid 
virtually dormant for such a long period that when it finally 
does break the destruction could be beyond imagination. And 
unlike California which has been hit with earthquakes 
continually for years, those along the fault have made little 
preparation for seismic activities. So if an earthquake were to 
hit right now, there would be no bridge across the Mississippi 
from St. Louis all the way down to Southern Arkansas near 
Louisiana. Memphis would virtually be destroyed as would much 
of Eastern Arkansas.
    So with these concerns as well as the yearly threat of 
tornadoes, preparation for disaster mitigation is of paramount 
importance. I want to express my concern for Project Impact. I 
appreciate the work that has been done to reauthorize this 
program for another 5 years. There is a sunset provision, I 
think that's fine and I support the chairman in that. I think 
there is no intent to end that program, though we need to 
reevaluate, as with any program such as this, to ensure that 
over the course of the next 5 years the direction of the 
program continues to be what it should be. But I do think we 
have to be careful with an inadvertent ending of what I think 
is a very, very important programs.
    I look forward to working with the chairman and the ranking 
member in the reauthorization of Project Impact. Thank you, Mr. 
Chairman.
    Senator Inhofe. Thank you, Senator Hutchinson.
    We have two panels. The first panel will be just one 
individual but he is accompanied by two of his associates, the 
Director of FEMA, James Lee Witt. In the second panel we will 
have four individuals, one from Oklahoma, Albert Ashwood, a 
very fine individual, and Hal Daub--is Hal here yet? There you 
are. Hal used to have in the House of Representatives the 
office next to me. Some of you people with Hal probably don't 
even know that he was considered to be the Father of the Notch 
Babies when he was here.
    [Laughter.]
    Senator Inhofe. So with that, we will introduce Mr. Witt 
for any comments he would like to make. Your written statement 
will be submitted for the record in its entirety.
    We will have other Senators coming in. All of the members 
are represented here by their staff who will report back. But I 
think we're going to have other members coming in. I have to 
say that this meeting is being held simultaneously with another 
Environment and Public Works Committee meeting, so that's what 
is making it difficult for our attendance.
    Mr. Witt, we look forward to your testimony.

   STATEMENT OF JAMES LEE WITT, DIRECTOR, FEDERAL EMERGENCY 
MANAGEMENT AGENCY; ACCOMPANIED BY MICHAEL ARMSTRONG, ASSOCIATE 
 DIRECTOR FOR MITIGATION AND LACY SUITER, EXECUTIVE ASSOCIATE 
                DIRECTOR, RESPONSE AND RECOVERY

    Mr. Witt. Thank you, Mr. Chairman, and Senator Hutchinson 
thank you for being here. It's good to see a fellow Arkansan 
and my Senator. Thank you for your support and thank the 
members of this committee for their support. I just want to 
thank you for the opportunity and express my appreciation for 
the support Congress has continued to provide FEMA over these 
last 5\1/2\ years.
    I'll make my remarks brief so we'll have time for questions 
and answers. I know how busy you are, and I would like to ask, 
Mr. Chairman, my statement be placed in the record.
    Senator Inhofe. Without objection, so ordered.
    Mr. Witt. I'm very proud of our efforts at FEMA and the 
assistance we have delivered and the message that we send to 
the Nation that we really do care about what happens to the 
people across the country and that help will be there if it's 
needed. The future of emergency management and FEMA's role in 
the future is what I want to talk about today.
    I have been blessed to serve a President who cares deeply 
about the affects of disasters on our people and our 
communities, and a Congress that recognizes and supports our 
efforts. And I'm equally pleased to serve an agency that really 
does make a big difference in peoples lives.
    Our staff has worked very hard. We've also been very 
fortunate because we get to work with some of the very best 
partners at State and local Governments across the country and 
some of the best people at the local level in volunteer 
organizations, public safety forces, emergency managers, 
floodplain managers, fire services, and the private relief 
organizations that help us so much during disasters, and the 
local people in the communities that are forced to respond 
under some of the very most pressing circumstances.
    But, Mr. Chairman, during my time at FEMA I've had a really 
wonderful opportunity to meet some outstanding people across 
our country. I have met brave people after a disaster who have 
determined to rebuild their homes and communities, and we 
should really celebrate the spirit in which these people work 
so hard to rebuild and their inspiration to us all to help them 
more and to work harder for them.
    Today, I hope you will join me in supporting these people 
before a disaster occurs. Through Project Impact, our 
predisaster mitigation program, we're working to make 
meaningful changes in communities to reduce the impacts of 
disasters. Hope doesn't have to follow tragedy. Hope can be 
there before a disaster to make our schools, our businesses, 
our homes, and our communities safer and stronger.
    This is an historic hearing since your legislation provides 
increased legislative authority for predisaster mitigation. We 
appreciate the fact that the Senate draft bill is authorizing 
this program. We would appreciate a 5-year authorization for 
this program, with funding increasing rather than decreasing. 
That would send a very important message to those partners out 
there that we're working with to make a difference in those 
communities and to strengthen them. This is a new approach and 
this program needs to be funded at the level that allows FEMA 
to leverage that public/private sector out there that's going 
to be putting seed money into all these communities across the 
country that we're working with.
    Two other items. I strongly believe that this program 
should not sunset. I believe we should report to you on the 
program after the 5-year period and then have the committee 
decide what course of action we should take in the future at 
the end of that period.
    Project Impact really needs to be its own separate account 
in FEMA's budget, with administrative funds to support the 
efforts at all levels. Project Impact is special. It is not 
just another Federal grant program, it is a unique partnership 
that brings communities together in a lot of different ways, 
from spring break programs where students have gone out in the 
communities to help their communities, like adopting storm 
drains to keep them clean, minimize future floodings. Project 
Impact is a catalyst for some of the best ideas around in these 
communities. I would be pleased to give you a number of 
examples of what we're doing in Project Impact as we continue 
our discussions today.
    As we move forward on Project Impact, we still need to 
continue our post-disaster mitigation. In the aftermath of the 
1993 floods, FEMA worked with the Administration and Congress 
to initiate a property buy-out program that removed over 20,000 
pieces of property from the floodplain and returned them to 
open land-use management. In fact, Senator Chafee was one of 
the leaders in this effort and was instrumental in helping to 
achieve its passage.
    Two years later, in 1995, these same areas that flooded 
were flooded again, but no one lived there, we did not have to 
spend a single dime on disaster costs, and those people did not 
have to go through the frustration of losing everything that 
they had worked all their life for. This meant that emergency 
funds did not have to be spent protecting those same 
structures. The disaster funds at the Federal, State, and local 
level were not spent in repairing homes and rebuilding that 
infrastructure in that area.
    We appreciate the work that has been done in the Senate 
subcommittee's draft bill. I want to thank your staff for all 
the hard work that they put in on this which recognizes the 
contribution mitigation makes to reducing future impacts. We 
strongly endorse the increase in the 404 program. Under the 
Senate draft bill, this amount is raised up to 20 percent from 
15 percent. We believe this will have a significant and 
immediate impact on reducing the disaster risk across the 
Nation. This will provide greater resources to address the 
repetitive flood losses that we have across our country and to 
take other mitigation measures such as seismic retrofitting, 
wind resistance, and preventive measures. I would be happy to 
provide you with examples in how this works as well as we go 
through today.
    Let me close by saying we have streamlined our individual 
assistance program, we have streamlined our entire process and 
systems to make it more customer friendly and to serve our 
customers better. But by doing this, just by doing the tele-
restoration centers where people call and apply by a 1-800 
number saves us about $16 million a year by doing that. The 
computer technology we're using with our inspectors now that 
verifies application needs and the central processing that we 
have put in place is saving $22.5 million a year.
    Also, I think it's noteworthy to talk about the 
improvements in how we have accelerated this. The housing 
inspectors that go out and look at the damages after a person 
calls and makes an application, puts it in the palm pad 
computer, transmits it to central processing. It used to take 
weeks and weeks to get that money out to help the individual. 
Now we get it out to them in seven to 10 days. But the good 
side of it is how well we can track it. We have a better 
ability now to track this with a financial management system 
and have a good financial management track record.
    Public assistance, Lacy Suiter, the Association Director, 
to my right, and his office is working with the States in 
streamlining the public assistance program. This new public 
assistance program and the reengineering of it puts the 
decisionmaking down in the local Government's hands and the 
State Government's. The pilot programs that we have put in 
place in Kentucky and in Florida are working extremely well. 
I'm sure you'll hear more about that. So we would ask you to 
help and encourage you to get this in place in the legislation.
    We can do better. But I believe we have got to change the 
way we deal with the disasters or we're going to be continually 
paying over and over and over again in the same areas that have 
been hit by disasters time and time again. We have to put an 
end to the damage-repair-damage-repair cycle. Predisaster 
mitigation and mitigation is the way to do this.
    I want to thank you for your time. I deeply appreciate the 
support that you have given me and FEMA and the staff since I 
came into this job, and the confidence that you have shown in 
us and the job that we do. It does matter and it does make a 
difference to people. We'll be happy to answer any of your 
questions.
    Senator Inhofe. Thank you, Mr. Witt.
    For the benefit of our fellow Senators up here, I would 
like to go right up to 9:30, and when we get over there I 
understand there will be two votes. That way we can knock them 
both out with one short recess. We've been joined by the 
ranking member of this committee, Senator Graham from Florida, 
and the chairman of the full committee, Senator Chafee. I would 
like to ask if they have any opening statements or comments to 
make?

             OPENING STATEMENT OF HON. BOB GRAHAM, 
             U.S. SENATOR FROM THE STATE OF FLORIDA

    Senator Graham. Senator, I appreciate your holding this 
hearing. The whole issue of the avoidance or mitigation of 
disasters has been one that people have felt intuitively was 
important but which we at a policy level have not given 
adequate attention to. I have a statement which I would like to 
file for the record.
    Senator Inhofe. Without objection.
    Senator Graham. Thank you and particularly James Lee Witt 
for the testimony today. If I could, Mr. Chairman, I have in my 
experience in Florida and now in the U.S. Senate had an 
opportunity to work with a number of the leadership and 
professionals in the Federal Emergency Management Agency, and I 
will say that James Lee Witt has brought a new standard of 
ability and dedication to that position and has had an enormous 
impact both within the Federal agency and I see it at the State 
level. State officials see James Lee Witt and say that's the 
role model that I want leading my emergency operation in my 
State or in my community.
    And so I could not be more appreciative or complimentary of 
James Lee Witt for what he has contributed to our Nation and, 
particularly, our ability to respond in the times of ultimate 
crisis.
    Senator Inhofe. Thank you, Senator Graham. That's exactly 
what I said in a less eloquent way.
    [Laughter.]
    [The prepared statement of Senator Graham follows:]
  Statement of Hon. Bob Graham, U.S. Senator from the State of Florida
    Chairman Inhofe and members of the subcommittee, I am pleased to 
join with you today to hear testimony on a very important matter, 
disaster mitigation and the Senate's role in encouraging mitigation. 
Since the outset of this year, I have been working closely with Senator 
Inhofe to develop bipartisan legislation to more comprehensively 
address the threats we face from disasters of all types. The bill is 
composed of two (2) titles: (1 ) Title I seeks to reduce the impact of 
disasters by authorizing a ``predisaster mitigation'' program; (2) 
Title II seeks to streamline the current disaster assistance programs 
to save administrative costs and to simplify the program for grant 
recipients. Our witnesses have reviewed the initial draft of this 
legislation, and come before us today to offer their comments and 
suggestions to improve upon our efforts to better control both the 
impact and the costs of disasters.
    We will also hear details about the strategies that are being 
pursued at the Federal, state and local levels to protect our nation 
against the effects of all types of disasters. Again, I believe this to 
be a critically important issue, both to my constituents in Florida and 
to high-risk areas throughout the nation, and I am looking forward to 
the testimony of our witnesses.
    Our first witness today will be the Director of the Federal 
Emergency Management Agency (FEMA), James Lee Witt. I am particularly 
familiar with the actions of Director Witt and FEMA this year, because 
Florida has experienced an unprecedented number of natural disasters 
throughout the State. In February of this year, 42 lives were lost in 
Central Florida as a result of the widespread destruction caused by 
severe storms and tornadoes. These tornadoes were followed by statewide 
floods, when many rivers reached record flood levels, and remained at 
flood level for several weeks. Over the past 2 months, Florida has been 
ravaged by statewide forest fires that were only recently contained to 
a manageable level.
    In each of these situations, FEMA mobilized quickly, in cooperation 
with the state and affected local governments, to provide residents and 
governments with the assistance they need to respond to and recover 
from the effects of these disasters. Today, when the President issues a 
major disaster declaration, the people of Florida feel a sense of 
relief and comfort, knowing that FEMA, and Director James Lee Witt, 
will soon arrive to carry them through toward recovery.
    Mr. Chairman, this feeling of relief represents a 180 degree 
turnaround from the feelings that FEMA used to engender in the State of 
Florida. As we all well remember, FEMA's actions following Hurricane 
Andrew in 1992, were less than expected. However, following the Andrew 
experience, and at the request of many Senators in this chamber, FEMA 
developed more effective and efficient methods of both protecting the 
population before disasters, and responding to disasters after they 
occur.
    Under the leadership of Director James Lee Witt--whom I believe was 
one of President Clinton's best appointments--FEMA has changed their 
way of doing business. In the past 5 years, FEMA has become more 
responsive to disaster victims and state and local governments, and has 
``reinvented'' itself by choosing to focus its energy on mitigating, 
preparing for, responding to, and recovering from the effects of 
natural hazards.
    Today we will hear more about this reinvention--at all levels of 
government--in terms of preventing the effects of disasters before they 
occur. The draft bill that we will discuss today seeks to refocus the 
energies of Federal, state and local governments on mitigation, and 
will shift our efforts to preventative--rather than responsive--actions 
in planning for disasters. Such a change in ideology is critical to 
reducing the short- and long-term costs of natural disasters. We must 
seek to encourage both the public and the private sector--as well as 
individual citizens--to take responsibility for the threats they face 
by adopting the concept of disaster mitigation into their everyday 
lives. Just like energy conservation, recycling, and the widespread use 
of seat belts, disaster mitigation should become a concept that all 
citizens incorporate into their day-to-day lives.
    FEMA has taken an important first step in this process by 
establishing ``Project Impact,'' their new mitigation initiative, in 
local communities throughout the nation. I am proud to say that 
Deerfield Beach, Florida, was the first community to be chosen as a 
participant in Project Impact. I am certain that the leadership of Joe 
Myers, Director of the Florida Division of Emergency Management--who 
will also be testifying today--was an important factor in FEMA's choice 
of Deerfield Beach. As we conduct this hearing, I will be interested to 
hear: (1 ) how this initiative has been implemented to date; (2) what 
actions are being taken at the state and local levels to encourage 
mitigation; (3) what partnership role is being taken by the private 
sector; and finally, (4) what legislative initiatives the Senate should 
pursue to ensure that Project Impact is fully successful.
    Once again Mr. Chairman, thank you for holding this hearing, and I 
look forward to the testimony of our witnesses, and working with you to 
move this legislation forward.
    Senator Inhofe. Senator Chafee?

           OPENING STATEMENT OF HON. JOHN H. CHAFEE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Chafee. Thank you very much, Mr. Chairman. Again, I 
want to join in congratulating you for holding these hearings. 
This is a very important area. I think Mr. Witt is right on 
track when he talks about mitigation. It's a tough agency to 
run. We've all had experience with seeing the problems that 
they confront. No matter what they do, people criticize. It's a 
tough job, and, Mr. Witt, I think you've done excellent work 
and congratulate you, and I would urge you to pursue this 
mitigation effort that you're involved with.
    Mr. Witt. Thank you very much, Senator.
    Senator Inhofe. Thank you, Senator Chafee.
    Let me start off, Mr. Director, by reading something that 
was in a magazine called ``Quality Engineering'' on this 
Institute for Business and Home Safety. When you read the 
description of this, which I'll read part of a paragraph, ``The 
IBHS is an insurance industry initiative to reduce deaths, 
injuries, property damage, economic loss, and human suffering 
caused by wind storms,'' et cetera, ``in our showcase 
communities,'' which I think are analogous to some of your 
Impact communities, ``We will establish partnerships with 
Government,'' and so forth, it sounds almost like the job 
description that you describe in your opening remarks.
    I look upon this as something that someday might be able to 
take over a program like this, and perhaps this would be jump-
starting it. I would like to know what your perspective is in 
terms of the relationship between the program that we're 
embarking upon now and this program as portrayed in this 
magazine?
    Mr. Witt. Mr. Chairman, that program, Harvey Ryland is the 
director of that Institute and that program, Harvey is working 
very closely with us in some of the Project Impact communities 
and designating them a showcase community. So we're working in 
sync with that organization.
    The problem with the organization is that they are very 
limited in funding directly to a community because they are a 
research organization that does research for the insurance 
industry.
    Senator Inhofe. How many communities do they have under 
this, approximately, do you know?
    Mr. Witt. I believe they are working in five communities at 
the present time. Is that right, Mike?
    Mr. Armstrong. Senator, Michael Armstrong, Associate 
Director for Mitigation. IBHS is spotlighting roughly seven and 
up to maybe a dozen showcase communities across the country. 
They have stated that their goal is to have demonstration 
projects in some of these communities. But they have confessed 
publicly that they are limited, as the Director said, 
financially. They are more there to demonstrate retrofit on one 
particular structure, but they certainly don't have the 
resources to give local communities.
    Senator Inhofe. All right. Thank you.
    We have 4 minutes remaining in this vote. We're going to go 
vote on this and then vote one more time, there are two votes, 
and then we'll come right back. So we'll take about a 10-minute 
recess at this time. I hope that you folks can return.
    [Recess.]
    Senator Inhofe. We'll reconvene now.
    We have others coming back. It took a little longer than I 
thought, and I apologize for that.
    Mr. Witt, for the seven pilot communities in Project 
Impact, are you able this early to show any definitive results? 
Give us a progress report on what you know now that you didn't 
know when all of this started.
    Mr. Witt. Mr. Chairman, it has gone extremely well. What 
I'm so impressed about is the fact that the small amount of 
money that we used in the pilot communities that started the 
community on the road to do the prevention program, the money 
from the business community and corporate leaders and the banks 
has just been incredible. It's like $1 million of seed money 
and the community themselves, with the business community and 
the organizations, raised $6 million more to go with it to, for 
example, in Seattle, Washington, retrofit for an earthquake. 
The goal in the near term is to retrofit 2,000 homes of 
moderate to low income and their schools against earthquake 
risk.
    What has been interesting as well is, for example, 
Merchant's Marine Bank in Pascagoula, Mississippi, is now 
actively advertising FHA title 1 loans to individuals and 
businesses to do the prevention that they need to do against 
hurricanes and floods. And other banks, such as Citizens 
National Bank of West Virginia and Washington Mutual are 
developing favorable loan packages for mitigation loan 
customers. Pacific Bell has joined as a partner. So many other 
corporations have joined. It's going extremely well.
    Senator Inhofe. Good. Good. I know it is difficult to 
answer a question like this because different States are 
equipped differently, but looking down the road to devolving 
some of this to the State and local level, how would you 
analyze the States' ability now to absorb these 
responsibilities?
    Mr. Witt. I think some States, Mr. Chairman, have an 
incredible ability to do a lot in their State because they have 
the staff to do it and they have the State Governors and the 
legislators supporting them.
    Senator Inhofe. And, too, some States are already doing 
this. They may be under a different----
    Mr. Witt. Yes, sir. They are. Mike Armstrong in Mitigation 
has been working diligently with the NEMA Subcommittee on 
Mitigation and putting in place a State management program. 
We're piloting that program in Florida and where else, Mike?
    Mr. Armstrong. In Florida, North Dakota, and Iowa.
    Mr. Witt. And Joe Myers is here today, and that's working 
extremely well. They signed an MOU with FEMA that they want to 
participate as a management program for mitigation, and we hope 
that this program will be part of that management program or 
that MOU after we get it in place.
    Senator Inhofe. Mr. Witt, I talked to some of the other 
members who are not going to be back for a little while. They, 
and it's the custom of this committee to do this and other 
committees, would like to submit some questions to you in 
writing, and I'm sure you would be receptive to responding to 
those questions to this committee. In doing so, I would like to 
have it done fairly quickly because we're talking about maybe 
doing a markup next week. They do have questions they would 
like have answered, and if you could give that a priority when 
those questions come in, we would appreciate it.
    Mr. Witt. We will, sir.
    Senator Inhofe. Let me again reemphasize the high regard I 
personally have for you and what you have done for my State of 
Oklahoma and the job that you're doing as Director. Thank you 
very much for coming this morning.
    Mr. Witt. Mr. Chairman, may I add one thing?
    Senator Inhofe. Yes, of course.
    Mr. Witt. My vision of this program is to bring in the 
insurance companies, particularly in communities where people 
are doing the prevention, and taking the necessary measures to 
eliminate that risk in their home and their business and their 
community. We would like to see the insurance industry give 
them a lower premium and a lower deductible in support of that 
effort.
    Also, I met with the Wall Street contingency planners' 
professional association, and we're working to give those 
communities that participate and do the prevention, when they 
needed a bond issue, a better bond rating. These are the types 
of things that we're bringing in to try to help those 
communities and strengthen them. I think it's going to work.
    Senator Inhofe. I think it's a win-win situation. It 
results in lower premiums for individuals, saving lives, of 
course, that's what it is really all about, and the more you 
can come up with what you mentioned in your opening remarks 
about a second disaster and not one life was lost, those are 
compelling arguments that make this a kind of program we can 
all support on both sides of the aisle and both sides of the 
Capitol. Thank you very much.
    Mr. Witt. Thank you, Mr. Chairman.
    Senator Inhofe. I would ask our second panel to come to the 
table. Our second panel consists of the Honorable Hal Daub, 
Mayor of Omaha; Joe Myers, Director of Florida Division of 
Emergency Management; Mr. Albert Ashwood, from my State of 
Oklahoma; and Dan Summers, Director of the Department of 
Emergency Management in Hanover County, North Carolina.
    As I mentioned before, Hal Daub is an old friend of mine. 
We quite often when I see my fellow senators and they complain 
about the long hours they're working and the difficulty of 
their job, I say you try being the mayor of a major city. I've 
had a hard job as a three-term Mayor of Tulsa, Oklahoma, about 
the same size as your city, Hal, and I know how difficult it 
is. If they don't like the trash system, it ends up in your 
front yard. There's no hiding place.
    Mayor Daub. That's right, Mr. Chairman. They know where you 
live.
    Senator Inhofe. That's right.
    I do appreciate all of you being here. We want to hear from 
you from a State perspective. We will go ahead in the order of 
the hearing notice, with Daub, Myers, Ashwood, and Summers. 
Again, if you would try to keep your remarks close to 5 
minutes, that would be fine. Your whole statement will be 
entered as a part of the record.
    We'll start with Mayor Daub.

STATEMENT OF HON. HAL DAUB, MAYOR OF OMAHA, NEBRASKA, ON BEHALF 
                OF THE NATIONAL LEAGUE OF CITIES

    Mayor Daub. Thank you very much, Mr. Chairman. I think I 
can hit somewhere between five and seven, I'm not sure about 
five. But I really do appreciate the chance to be here and to 
let you know how much the National League of Cities appreciates 
your leadership and that of your ranking member, Senator 
Graham, and the members of this subcommittee.
    I am in my second term, as you alluded, as Mayor of the 
great city of Omaha, Nebraska. I was a Member of the U.S. House 
of Representatives from 1981 to 1989 and had the privilege of 
serving with you. So it's a double pleasure to be here today. 
Currently I'm a member of the board of directors of the 
National League of Cities, and last year I served as Chair of 
our National League of Cities Public Safety and Crime 
Prevention Steering Committee which is responsible for 
developing NLC policy on all issues related to public safety. 
This committee considers and recommends related policies, 
particularly those that affect natural and manmade disasters. I 
am testifying for the League today as a member of the 
organization's board.
    During my tenure on the Public Safety Committee, I was 
privileged to serve as Chair of the Emergency Preparedness and 
Disaster Relief Subcommittee. Through this service, as well as 
my time in Congress, I've had the opportunity to study much 
legislation dealing with Federal disaster relief for 
municipalities. And now as Mayor of the Nation's 45th largest 
city, I've had the opportunity to form a unique perspective 
into the combining roles of our local and Federal Government 
entities and what kind of a role they should play in planning 
emergency response and in funding disaster relief.
    In fact, just last October the city of Omaha experienced 
its own devastating snowstorm in which an estimated $10.5 
million of Federal aid will be given to our city to help repair 
nearly $15 million of storm related damages, mostly to public 
parks, streets, and infrastructure including right-of-ways. So 
in the aftermath of that storm, the private sector volunteerism 
and support which came forward became an even more invaluable 
catalyst for recovery. Those public-private partnerships 
between citizens, city government, and the Federal Emergency 
Management Agency exemplified to me all that we're here today 
to talk about.
    The National League of Cities was founded in 1926 by State 
municipal leagues, as you well remember, and has become the 
established voice of our Nation's cities at the Federal level. 
We represent 49 State Leagues, 135,000 local elected officials, 
1,400 direct and 16,000 indirect member cities.
    So, I want to say, first, thank you very much for your 
leadership, and thank your staff for your outreach to cities 
and other stakeholders with roles in disaster preparedness, 
response, recovery, and mitigation.
    My statement, Mr. Chairman, is submitted at this time to 
you for the record, if you will accept it.
    Senator Inhofe. Thank you, Mayor Daub.
    Mayor Daub. And I would like to go forward with just a 
couple of other comments.
    Senator Inhofe. Let me ask you a question. The only 
question I was going to ask is you're here as the Mayor and 
also speaking in behalf of the National League of Cities, I 
want to make sure that is in the record.
    Mayor Daub. Yes, that is correct.
    I'm going to skip through my formal statement and just 
highlight a couple of things that I think will be of interest 
to the committee.
    Almost two-thirds of Federal disaster costs are from damage 
to public facilities and infrastructure. We know all disasters 
are local. Thus, it is essential that responsible local 
officials, both elected and professional emergency personnel, 
are engaged on a permanent basis in activities to increase our 
overall capability to identify and assess disaster risks and to 
advance established mitigation strategies and priorities. This 
legislation will greatly assist us, it will propel us on that 
path.
    It is not certain that mitigation is all of the answer, 
but, as someone said, intuitively, one must think that it is a 
very appropriate approach. And I am pleased that FEMA is now 
very much on board in this arena and wants to see this occur. I 
was very much encouraged by Director Witt's testimony and their 
preparation for the potential of this legislation which has 
been marked up in the House and now being marked up in the 
Senate.
    Throughout this act there is an emphasis placed on the 
importance of Federal support to and engagement of State and 
local Governments to accomplish implementation of effective 
mitigation measures. We are pleased that States are called upon 
to engage local governments in development of their 
comprehensive mitigation plans and programs as well as in 
setting statewide priorities. This involvement will help local 
officials begin to recognize and analyze existing hazards and 
to learn how they can be reduced or eliminated through already 
proven mitigation approaches.
    We also expect FEMA to provide States and localities in a 
timely fashion information on the successes of Project Impact 
as they develop. This should include examples of how cities 
succeed in bringing the business and not-for-profit sectors in 
as partners to create disaster resistant communities. Setting 
criterion and recognizing meaningful and definable outcomes are 
crucial if we are to determine what specific mitigation 
activities work and how well they work in saving lives, 
reducing recovery costs, and preventing major disruption in 
local and regional economies. The criteria you set in this act 
will also facilitate objective selection by States and 
localities recommended to the President for predisaster 
mitigation assistance.
    We applaud in the proposal the creation of the Interagency 
Task Force to coordinate all predisaster mitigation 
administered by the Federal Government. In section 202, we want 
to make a point about the Small Business Administration 
language. The requirement would be that a not-for-profit must 
apply to the SBA for a disaster loan and be rejected or receive 
an insufficient amount to make repairs before it could receive 
assistance under this act. That could be a serious problem. For 
example, if the Red Cross was the primary service provider for 
persons and families displaced by a disaster and Red Cross 
shelters were damaged and therefore unsafe, wouldn't it be 
important that needed repairs be funded immediately? Wouldn't 
waiting for SBA approval and rejection of a loan request create 
hardship after such a major disaster. We might want to take a 
look at the language to accommodate that sort of thing.
    We wold also like to encourage the subcommittee to include 
in your report on this act language directing FEMA to provide 
opportunities for public comment prior to the adoption of any 
new or modified policies that would have potential funding 
impacts on State and local Governments, and that the agency 
does not apply such policies retroactively.
    Last, just a quick highlighting, it will take me less than 
a minute, to support the following:
    We fully support the recommendations in the bill for the 
evaluation after 18 months of the implementation of predisaster 
mitigation. We support the establishment of cost estimation 
procedures. We support having the OCC conduct studies to 
examine the effectiveness of hazard mitigation programs. We 
support estimates by them to reduce Federal disaster assistance 
resulting from the implementation of the act. We appreciate 
that you will be looking at determining the current and future 
availability of disaster insurance for public infrastructure. 
We support the examination analytically of major disasters 
since 1974 so that we can look at more criterion in the future 
as we look at reauthorization in the year 2002 or some 
furtherance of the act.
    In addition, and in conclusion, with regard to studies and 
reports recommended by this legislation, the organization that 
I'm testifying on behalf of would like to encourage the 
subcommittee to commission a study to provide us all with the 
best possible information on disaster costs incurred by local, 
State, and Federal Governments. This information is essential 
if we're to determine whether or not predisaster mitigation 
really reduces disaster costs and is not taken out of the hide 
of local governments by supplementals. Our goal is to see this 
bill passed because we believe it will reduce the necessity for 
supplemental appropriations in the years to come.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Mayor.
    I would like to recognize our ranking member, Senator 
Graham, to introduce the next witness from Florida.
    Senator Graham. Thank you very much, Mr. Chairman. It is a 
great pleasure to introduce a man with whom I've actually been 
spending more time than I would care to in the last few weeks 
as a result of the unprecedented series of wildfires that we 
have experienced in Florida. But I want to say that typical of 
his work in other crises in Florida, from floods, to tornadoes, 
to hurricanes, that Joe Myers has again distinguished himself 
by the manner in which he has led our State in a coordinated 
effort to respond to this summer's crisis of fire.
    Mr. Myers is one of the most respected State leaders of an 
emergency management agency. He has managed the Florida 
Division of Emergency Management since March 1993. He has spent 
the past 22 years in various forms of emergency management. I 
have a longer statement, Mr. Chairman, that I would like to 
submit for the record. But for the purposes of this hearing, I 
think it is particularly significant that he has been a major 
proponent of disaster mitigation and has worked to implement 
one of the Nation's first disaster resistant communities in 
Deerfield Beach, Florida. He has been working to develop local 
mitigation strategies throughout Florida, a grassroots approach 
to disaster mitigation.
    So I am pleased that Mr. Myers joins his colleagues who are 
committed to this cause and I know will bring to us a valuable 
set of personal experiences and observations. Thank you, Mr. 
Chairman.
    Senator Inhofe. Thank you, Senator Graham. We will put your 
entire introduction into the record.
    [The prepared statement of Senator Graham follows:]
         Statement of Senator Graham Introducing Mr. Joe Myers
    Mr. Chairman, I am pleased to introduce Mr. Joe Myers to the 
subcommittee. Mr. Myers has managed Florida's Division of Emergency 
Management since March 1993, and has worked in the field of emergency 
management for the past 22 years. His philosophy of ``Coordination, 
Cooperation, and Unity'' between local, State and Federal Governments 
and the private sector has become his trademark for excellence.
    Because of Florida's vulnerability to hurricanes, Mr. Myers has 
developed a dynamic and proactive emergency management program. He has 
enhanced Florida's State and local preparedness, response, and recovery 
programs; and is continuing to develop a proactive mitigation 
initiative at all levels of government.
    Mr. Myers has actively worked with the Federal Emergency Management 
Agency to develop, revise and implement various policy initiatives. He 
continues to emphasize the critical importance of mitigation and has 
worked to implement one of the nation's first ``disaster resistant 
communities,'' in Deerfield Beach, Florida. This has been enhanced by 
his work to develop ``Local Mitigation Strategies,'' a grounds-up 
approach to local mitigation efforts.
    In addition to being Director of the Florida Division of Emergency 
Management, Mr. Myers serves as the Chairman of FEMA's National 
Mitigation Committee, on the Board of Director's for the National 
Multihazard Mitigation Council, and on the Advisory Panel for Risk & 
Vulnerability Assessment at the Heinz Center. In summary, he is 
uniquely qualified to discuss the application and implementation of 
disaster mitigation, and I look forward to his testimony.
    Senator Inhofe. Mr. Myers?

   STATEMENT OF JOSEPH MYERS, DIRECTOR, FLORIDA DIVISION OF 
 EMERGENCY MANAGEMENT, TALLAHASSEE, FLORIDA, ON BEHALF OF THE 
           NATIONAL EMERGENCY MANAGEMENT ASSOCIATION

    Mr. Myers. Thank you, Mr. Chairman, and good morning. 
First, let me start by thanking you, Mr. Chairman, Senator 
Graham, and other members of the committee for the opportunity 
for NEMA to speak today on these important issues. NEMA 
represents all the State and territory emergency management 
directors within the Nation and work directly with our 
Governors.
    This bill and what we're going to be discussing today I 
think will be one of what we call the defining moments in the 
history of emergency management. I've been in the business for 
over 20 years. I started in the 1970's and there's been about 
three or four major moments I think where the State, the local 
governments, the Federal Government, and the private sector 
have had to come together and tackle problems that became 
defining moments. Start back with the nuclear power problems of 
Three Mile Island in the 1970's, where the industry and the 
Government had to come together to resolve it, have better 
preparedness and programs. We did the same thing in the 1980's 
after the tragedy in Bhopal, India, where the chemical 
companies had to come together with the Government and form a 
better partnership to make things better. After Hurricane 
Andrew, the private sector and the Government got together and 
we have a better response program today.
    I think we're going into one of those defining moments, and 
that is the soaring cost of disasters and mitigation as we go 
into this next century. So I think that will go down as our big 
challenge in the 21st century.
    This proposed bill, the Disaster Mitigation Act of 1998 
hits at the heart of some of the most serious problems--cost 
containment, sustainable predisaster mitigation, and process 
streamlining. FEMA, through the great leadership of James Lee 
Witt, has worked in tandem with NEMA, and he used to be a 
member of NEMA, he was a State director, on these important 
issues, many of which are reflected in this bill.
    We believe and wholeheartedly support the notion that the 
only way to effectively reduce the spiraling cost of disasters 
is through preparedness and mitigation. We believe the 
establishment of a continuing appropriation for a predisaster 
mitigation program will have an immediate and long-term cost 
reduction benefit to this Nation. We would encourage the 
committee to consider keeping the level of funding at $50 
million a year instead of decreasing it on a sliding scale to 
where at the year 2002 it would be $20 million.
    Equally important are the provisions in the bill to 
streamline the hazard mitigation grant program and the public 
and individual assistance program. This will have an immediate 
benefit to both Federal and State recovery and mitigation 
efforts. We want to applaud the committee for recommending the 
increase of the hazard mitigation program from 15 to 20 percent 
for all Federal assistance, deleting the old sliding scale for 
associated costs with the idea of the management costs, using 
estimates of cost in the public assistance program, and 
revisions to the individual assistance program we think is 
going to help the victim get aid there quicker. And last, 
institutionalizing the concept of the hazard mitigation program 
management State. Florida was the first State in the Nation to 
sign an MOU with FEMA to become a management State. I am here 
to report to you today that it works very well. It has 
radically expedited the entire HMG process in our State. As a 
matter of fact, our first grant we did through the process I 
think we cleared it in about 4 hours.
    We are especially happy to see section 206 added to the 
bill streamlining the public assistance program. It's long 
overdue. We look forward to implementing this new process 
throughout the country. As a matter of fact, yesterday we got 
the go ahead from FEMA to start on some of that process from 
our most recent fires.
    Last, I would like to encourage the committee to take a 
look at the fire suppression grant process, having gone through 
what U.S. Forestry Service is calling the most complex 
firefighting event in the history of this Nation. We do see a 
need to review this process.
    We believe that FEMA should be in charge of all disasters 
including fires. That would eliminate any type of confusion as 
we look beyond the traditional wind and water issues in our 
emergency preparedness and response activities. As more people 
move into the urban-wildland interface, we will see more fires 
encroaching upon more homes just as they did in Florida. So 
really, it's getting beyond just fires, as they now get into 
the urban interface, they are becoming more like the 
traditional natural disasters. We see a stronger role by FEMA. 
We need to study this in much more detail and recommend 
appropriate fire prevention activities for our citizens.
    Thank you for giving me the time today. It would be a 
pleasure for us to discuss with you any of the issues and I'm 
ready to answer any of your questions.
    Senator Inhofe. Thank you, Mr. Myers.
    Our next witness will be Mr. Ashwood. Albert Ashwood is 
from Oklahoma and it happens that he is married to the daughter 
of at least one of my three closest friends in Oklahoma, Don 
Farrow. He and I were both in the State Senate, in fact were 
both Minority Leaders, he followed me in that position. I don't 
think there's anyone who understands the personal pain of 
disaster more than Mr. Ashwood. His wife's sister was killed in 
the blast of the Murrah Federal Office Building. She was an 
attorney for HUD. So he has a very personal concern for this 
program.
    I recognize at this time Mr. Ashwood.

 STATEMENT OF ALBERT ASHWOOD, DIRECTOR, OKLAHOMA DEPARTMENT OF 
      CIVIL EMERGENCY MANAGEMENT, OKLAHOMA CITY, OKLAHOMA

    Mr. Ashwood. Thank you very much, Mr. Chairman, Senator 
Graham. I would like to thank you for the opportunity for the 
State of Oklahoma to present testimony before your 
subcommittee.
    We commend you for your ongoing efforts to strengthen and 
enhance the Nation's emergency management system and we look 
forward to providing any assistance to you for this endeavor. 
From our position, your subcommittee recognizes that the only 
way we will truly reduce disaster costs and the significant 
impacts of disasters on our communities is through mitigation, 
more specifically, predisaster mitigation.
    The focus of today's hearing is predisaster mitigation and 
the streamlining and cost reduction of the emergency management 
process. Since 1990, Oklahoma has experienced 17 federally 
declared disasters which include 7 fire suppression 
declarations. Federal, State, and local dollars that were used 
within the State for each of the three recovery programs--
individual assistance, infrastructure and mitigation--during 
this period totals over $80 million.
    However, an important point to consider here is that the 
figure represents only the assistance identified as a result of 
the requirements to track disaster expenditures. Insured 
losses, uninsured losses or under insured losses, unreported 
labor and construction costs, and other miscellaneous costs 
would add even more dollars to that total. In addition, in 
1994, the State of Oklahoma enacted the State Public Assistance 
program. This legislation provides public assistance to 
political subdivisions up to $100,000 per calendar year, per 
jurisdiction, for nonfederally declared disasters that are 
declared by the Governor. For the State program we've expended 
nearly $3 million of State funds. Our program does not require 
a local match for these funds; however, it should be noted that 
in most of these disasters they cost well in excess of $100,000 
that is allowed per community.
    We strongly concur with the intent of the bill as written. 
Each of us at the Federal, State, local, and private level 
should do everything within our means to reduce the cost of 
disasters before they occur. Title I, predisaster hazard 
mitigation, will assist in this endeavor. We encourage all of 
our communities to identify and assess their risks, implement 
measures to reduce disaster losses, and ensure that critical 
facilities, public infrastructure, and lifelines will continue 
to function after a disaster. At the same time we are 
encouraging communities to do this, we are also advocating that 
the continuance of Federal assistance might be in jeopardy 
unless respective communities start helping themselves first 
before the disaster.
    Please understand that we fully concur with the predisaster 
hazard mitigation program. But we are trying to convince the 
communities of their responsibilities relative to developing a 
unified effort through local partnerships, identifying 
nonFederal resources, and initiating a strong commitment to 
long-term mitigation projects that can be funded locally. In 
addition, these local initiatives should be identified in 
detail in their all hazards mitigation plan.
    A review of Title I discloses that may need clarification 
on the following items:
    First, the definition of small impoverished communities. 
Coordination with our State Department of Commerce indicates 
that this definition may relate somewhat to the Department of 
Commerce's definition of a ``low to moderate income 
community.'' However, the term ``impoverished'' may need to be 
specifically defined so that it is consistent with the 
definition used by HUD.
    Second, a 90 percent share versus a 75 percent share of 
Federal funds for impoverished communities. This might be a 
national concern if approached from a strictly numbers 
standpoint. In Oklahoma, we have approximately 600 cities and 
towns but only about 145 have a population of over 2,000. Once 
again, we may need a better definition of ``impoverished'' so 
that we do not have situations of disproportionate distribution 
of funds within the State.
    There is a wealth of opportunities to use predisaster 
hazard mitigation funds in Oklahoma. As just one example, we 
have identified 85 structures that have repetitive losses from 
flood damages and several hundred more with just one loss. 
These structures need to be acquired and removed from the flood 
plain as soon as possible. We could use funds now to accomplish 
some of these acquisitions and many communities are able to 
provide the necessary matching funds.
    Regarding Title II, streamlining and cost reduction. We 
concur with the provisions of the draft bill as relates to 
management costs and assistance to repair, restore or 
reconstruct, or replace damaged facilities. The latter is a 
step forward to ensure that mitigation opportunities are 
discussed at each step of the public assistance process, and it 
provides the opportunity to fund hazard mitigation measures the 
State or local Government determines to be necessary.
    Proving care to individuals is a paramount concern in any 
emergency situation. For example, we are currently experiencing 
drought conditions in Oklahoma, as are other States a well. We 
have convened the appropriate State agency directors, their 
Federal counterparts, volunteer agencies, and private sector 
businesses to activate the Oklahoma State Drought Management 
Plan. This plan focuses on fire suppression, water shortages, 
heat related problems, and agricultural losses. This is a 
proactive step to protect our Oklahoma citizens. The emergency 
management process as relates to individual assistance is a 
crucial link in providing food, shelter, and life sustaining 
services to each Oklahoman.
    We in Oklahoma learned a very valuable lesson April 19, 
1995, and the Oklahoma disaster service community continues to 
provide essential services to many of those affected by the 
Murrah Building bombing. From this lesson we know that early 
coordination is the key to sustaining a reasonable quality of 
life for those affected by disasters. We must remember that a 
disaster does not end when the immediate response is completed. 
For those affected families the disaster has only begun.
    We concur with the State administration of the hazard 
mitigation assistance program. The wording of the draft bill 
enables each State to conduct an assessment of its abilities 
and capabilities to participate as a managing State along with 
the flexibility to participate in the program when the time is 
right. As defined, long-term, each State should strive to 
become a managing State. However, local capabilities impact on 
the final decision. We have already participated in some of 
this coordination. It would appear to be a seamless process to 
become a management State.
    We concur in concept with the streamlining of damaged 
facilities program. Since the program is still under 
development, we hesitate to concur fully until we have had a 
chance to review the new program in its entirety. We have been 
asked from the start of this initiative to review and provide 
comments relative to the development of the program.
    It appears that the PA program concurrently under 
development by FEMA will reduce the administration requirements 
of the current program as well as be more responsive to all 
eligible applicants. Further, as a member of NEMA, we are also 
looking at this program and evaluating it at that level. 
Streamlining the process is long overdue, and we look forward 
to the new program.
    In summary, we in Oklahoma share your concern about the 
rising costs of disasters. We encourage you to explore all 
opportunities to initiate cost-reducing measures such as 
predisaster hazard mitigation. Devolving more authority for the 
hazard mitigation grant program and the public assistance 
program will definitely reduce administrative costs, eliminate 
duplication, and streamline the entire process. The ultimate 
benefactors will be disaster victims themselves. Initiatives 
that you have identified already about a study regarding cost 
reduction, a study regarding disaster insurance for public 
infrastructure, and a study regarding declarations will no 
doubt identify additional areas for consideration.
    Thank you for the opportunity to speak today. I look 
forward to working with you in the future.
    Senator Inhofe. Thank you, Mr. Ashwood. We're very proud in 
Oklahoma of the work that you're doing.
    We've been joined by Senator Sessions from Alabama. I would 
ask Senator Sessions if he has any comment he'd like to make at 
this time.

           OPENING STATEMENT OF HON. JEFF SESSIONS, 
             U.S. SENATOR FROM THE STATE OF ALABAMA

    Mr. Sessions. Just briefly, Mr. Chairman. I have had 
occasion in my short tenure in this office to travel twice to 
Alabama unfortunately on disaster situations and travelled with 
Mr. James Lee Witt, the Director of FEMA. I'm sorry I missed 
his testimony. But I was very impressed with him, his 
responsiveness, his understanding of the problems, and his 
commitment to deal with this question of mitigation. He 
believes in it strongly. I think we need to work at it. We, 
like Senator Graham from Florida, have every so often, too 
often it seems, disaster situations that we want to be sure 
we're dealing with it the right way. But I think we can make 
great progress with disaster mitigation. I think we need to 
listen to the States and the people who are carrying it out on 
a daily basis. If we do that, we can make some good 
improvements. I think it is a good and important hearing, and 
thank you for calling it.
    Senator Inhofe. Thank you, Senator Sessions.
    Mr. Summers?

  STATEMENT OF DAN SUMMERS, DIRECTOR, DEPARTMENT OF EMERGENCY 
   MANAGEMENT, NEW HANOVER COUNTY, WILMINGTON, NORTH CAROLINA

    Mr. Summers. Good morning. Before I begin, I would like to 
mention to Senator Graham that I had the opportunity to lead 37 
North Carolina firefighters to Florida as part of that 
activity. We were happy to serve in that capacity and hope we 
in some way returned the favor that we received from the State 
of Florida during Hurricanes Bertha and Fran. I have to tell 
you, the hospitality was real good, too.
    Senator Graham. If I could, Mr. Chairman, I would like to 
thank Mr. Summers, and through him, those who came from North 
Carolina and the 40 other States who assisted in these fires. 
Without their assistance, I think Mr. Myers would verify, we 
would not have been able to have contained this terrible 
situation without much higher loss of life and property. So 
thank you very much.
    Mr. Summers. Thank you. Mr. Chairman and members of the 
committee, it is indeed an honor to be with you today. I 
compliment you on your desire to learn more from the local 
Government perspective regarding possible amendments to the 
Stafford Act.
    I bring to this discussion 15 years service as one 
community's Emergency Manager having participated in four 
Presidential Disaster Declarations. In North Carolina, nearly 
all one hundred counties have experienced disasters in the past 
decade. The issue of disaster response is no longer the other 
community's problem. I can attest that most all local 
Governments now have a greater appreciation for a sound 
emergency management response program. However, it is my belief 
that while disaster response plans are improving, only a small 
number of communities are sensitive to the rising disaster cost 
and the potential for cost reduction under the concept of 
mitigation.
    This committee, along with local Governments, and Federal 
agencies are equally concerned about the cost of disaster 
recovery. However, before you hasten to suggest restrictions, 
understand that every disaster response is indeed community 
specific. Needs vary, and individual pain and suffering is far 
greater than the typical 15 second sound bite seen on the 
evening news.
    I have witnessed Federal participation in disasters in the 
1980's and I have been a part of the Federal response effort 
during events of the 1990's. Allow me to compliment FEMA and 
many of its Federal partners on dramatic improvements in 
customer service. While dramatic improvements have occurred and 
communities are better served, there still exists opportunities 
to reach new levels in disaster response and mitigation. The 
efforts of FEMA's Project Impact is the new cornerstone of 
local recovery in mitigation initiatives.
    My community, New Hanover County, North Carolina, is one of 
seven pilot communities involved in this worthwhile program. 
With FEMA's program support, we have a local community-driven 
task force. Our task force, titled the Partnership for Disaster 
Mitigation and Recovery, has generated strong community 
interest. Let me illustrate some of these successes.
    In our partnership with Lowe's Home Improvement Warehouse, 
we've conducted hurricane preparedness expos. These events have 
literally allowed thousands of visitors and customers to learn 
more on topics ranging from simple preparedness reminders to 
the latest techniques in strengthening residential homes and 
roof systems.
    Barnes and Noble Booksellers have contributed a full month 
of community service programming to hurricane awareness and 
single family home mitigation techniques. Most notably has been 
the highly acclaimed sessions for children who have learned 
preparedness and drawn pictures of elevating their homes, 
illustrating their understanding of disaster mitigation 
techniques.
    Just one of our planned construction projects is a combined 
FEMA and local effort. Combining post-disaster funding sources, 
we are designing new school roof systems to not only reduce the 
cost of damages during the next hurricane, but improving the 
building safety as an evacuation shelter as well. A key part of 
this activity will include training local engineers, building 
code officials, and architects on the latest wind resistant 
techniques for incorporation into future school construction 
projects.
    For the record, a summary of our community activity and 
work projects has been submitted.
    The Partnership is continuing to work on dozens of ways to 
minimize financial impacts of our next hurricane event. Project 
Impact has allowed local communities to best define their needs 
as opposed to following a manual generalized for the entire 
country.
    If you analyze the disaster recovery process, the majority 
of the response activity is a local level. Assistance typically 
is needed during recovery and restoration. Restoration and 
recovery efforts especially for infrastructure items such as 
public buildings, schools, roads, and basic housing are 
extremely difficult to manage following any disaster for any 
local Government. If a community takes steps to reduce the 
effects of a future disaster, especially areas experiencing 
repetitive events, it is simple to understand that the 
pressures of local Government can be reduced. Surprisingly, 
most of our disaster outcomes are no longer unknowns. 
Mitigation dollars spent now in partnership with local 
communities will be our road map to reduction in future losses.
    Recently one of our local elected officials put Project 
Impact in this perspective: ``Look at what our Nation has 
accomplished supporting the concepts of recycling and 
seatbelts. In these programs, we have invested in public 
education, research, and demonstration grant funding. By 
supporting predisaster mitigation funding opportunities, a 
national disaster mitigation ethic will begin to emerge.'' This 
ethic or change in the way we handle disasters is the best way 
we know to begin the process of reducing disaster losses.
    In closing, I cannot begin to tell you the excitement and 
dedication my community has developed regarding Project Impact 
and the common sense approach to predisaster mitigation. My 
communities, especially large and small businesses, feels that 
it's Government at its best because the activities and the 
programs are flexible and community based. I ask you to be 
patient and give this some time. We all know that new 
predisaster mitigation strategies will take time to conceive, 
develop, and implement on a State and local level. Your pre- 
and post-disaster mitigation funding will in time begin to show 
some very tangible results.
    I thank you for this opportunity. I hope you'll give strong 
consideration to opening long-term regulatory doors for FEMA 
and allow a community-based disaster mitigation funding and 
mitigation ethic to be borne. Thank you, and may I answer any 
questions that you might have.
    Senator Inhofe. Thank you, Mr. Summers. We appreciate all 
of you being here today.
    Mayor Daub, you said something about some language that you 
would recommend as it relates to SBA. So I would ask you, and 
maybe even while you're still here, and this would be for the 
rest of you too, as I asked Director Witt to do, any 
suggestions you have, now is the time to share them. If not at 
the table orally, if you would try to get your suggestions in 
because, as I said earlier, we may be going into a markup and 
the whole purpose of this is to get your input on that. So I 
would ask you to do that.
    Mayor Daub, not in your relationship and representing the 
National League of Cities, but as Mayor of Omaha, you mentioned 
reauthorization perhaps in the year 2002 or devolving. Looking 
at it right now from your city's perspective, which would be 
your choice at that time?
    Mayor Daub. We have had several very serious experiences. 
One I alluded to in my opening remarks, which was 12 inches of 
wet snow before the leaves fell in our very treed city that 
created a huge disaster environment and was declared and a 
substantial amount of FEMA effort and Federal taxpayers' money 
is going to go into the cleanup, if you will, and the 
restoration improvement of a large amount of public property. 
We're now looking at the flooding potential along our Missouri 
River and what kind of predisaster mitigation effort in the 
floodway and the flood plain we can engage in.
    So the function of this set of criterion being put into the 
Stafford Act gives me hope that with the studies that are also 
required we'll know enough by the year 2002 to say that the 
effort we're making is working or isn't working. If we can 
develop best practices and really involve local municipalities 
in these efforts, I think that we'll be in a position to create 
a reauthorization. But I support the sunsetting requirement 
because it gives us a chance to evaluate.
    Senator Inhofe. Mayor Daub, having been a mayor myself, 
maybe I'm the only one who picked up on this from your 
testimony, the very last sentence, I heard something that 
sounded an awful lot like a concern or fear of a future 
unfunded mandate. Did I?
    Mayor Daub. Yes. And I would urge you to be very clear 
about one of the reasons that I'm here as a mayor and one of 
the reasons I'm here on behalf of the League, we want you to 
continue to avoid the unfunded mandate but recognize that the 
Federal dollar appropriately invested in predisaster mitigation 
work should help us to avoid the other wrenching experiences of 
seeing municipal funding levels, at the Federal Government 
perhaps cut back and/or the need for supplementals because of 
these unexpected disasters. So it is a function of us trying to 
maintain our commitment to you to support balanced budget 
activity but at the same time doing those smart things that 
intervene and are preventive that will save money and lives in 
the long run.
    Senator Inhofe. Thank you.
    Mr. Myers, you mentioned in your testimony the level at $50 
million. I anticipate when we come into markup that there are 
going to be some amendments that are going to address the 
funding levels over the next 5 years. I've already expressed 
myself earlier in my opening remarks as to where I'm coming 
from on this. But how did you happen to use those figures in 
your opening statement? What did you base that on?
    Mr. Myers. The $50 million is something that we within our 
organization have looked at as a consistent across the board. 
What we have seen is it's been a sliding scale. We think if we 
continue showing the commitment, it is going to give us the 
opportunity to leverage more private dollars by showing that 
commitment to that private sector, which is critical I think to 
the entire success of this whole initiative. So that's where we 
are on that.
    Senator Inhofe. All right. Thank you, Mr. Myers.
    Mr. Ashwood, as you know, Tulsa has been selected as a 
community to participate in Project Impact. I think one reason 
is not just because I Chair this committee, that probably had 
something to do with it, but it's that we have historically 
done some things where we've provided a leadership role. When I 
was mayor of Tulsa, for example, in our flood program, we had 
the same problems for over 20 years and it got to the point 
where it was almost predictable what was going to happen. So we 
took the initiative and established a program in Tulsa that has 
ever since then met that disaster. So I think we're kind of a 
poster child for that success story.
    I would ask you if you have any comments about what you 
anticipate will happen in the city of Tulsa, and then how that 
might relate to other communities in Oklahoma.
    Mr. Ashwood. I think it is important to point out that 
Tulsa was selected in Oklahoma because they are a model 
community. They are a community that has already taken the 
steps, following the Memorial Day flood of 1984, to take care 
of themselves.
    Senator Inhofe. Yes, I remember it well.
    Mr. Ashwood. That's what we're trying to do with Project 
Impact. What we're trying to do is we're trying to set up a 
model community in Oklahoma by which other communities within 
the State can look at and say we can do that at our local 
level. I think it's very important to realize that if a 
community started today as a Project Impact community with a 
little seed money and in 5 years they were at the level that 
Tulsa is right now, we would probably all be saying that is a 
success story.
    What we're doing with Tulsa is trying to take it that step 
further and to have them recognize that there are more hazards 
that they have in Tulsa, Oklahoma besides just the flooding 
impact, with all the refineries and the hazardous materials 
that are along the Arkansas River as well as the tornado hazard 
that they experience every spring in Oklahoma.
    Senator Inhofe. You can almost set your watch, can't you?
    Mr. Ashwood. You bet.
    Senator Inhofe. Thank you very much, Mr. Ashwood.
    Senator Graham?
    Senator Graham. Mr. Chairman, I believe the full committee 
is going to start meeting at 10:45, is that right?
    Senator Inhofe. That's correct.
    Senator Graham. So given the fact of our time limitations--
--
    Senator Inhofe. What I would suggest doing is just doing 
this round of questioning, and then I've already prepared them 
for written questions they can respond to as quickly as 
possible.
    Senator Graham. That's exactly what I was going to do, Mr. 
Chairman, is sort of lay out what are some questions that I 
would be interested in that you might respond to in writing. I 
would like to underscore what the Chairman said about the 
timeliness of this because I know it is his hope to move this 
as quickly as possible so that we have the best chance of 
actually accomplishing our legislative objective this year.
    The way I approach policy issues is what I call the medical 
model; which is, first you ask the diagnostic questions--what's 
wrong with the patient. In this case, what's wrong with our 
current approach to mitigation, something that sounds so common 
sense as taking steps to avoid unnecessarily adding to the pain 
of a crisis? What are the current inhibitions to doing that, or 
what are some of the absent incentives in order to be able to 
effectively implement a mitigation strategy? Then you turn 
after diagnosis to prescription. What do you do about the 
problems that you've identified? And I would break those into 
two categories; one, those in which we think we know enough 
about to provide a prescription, and second, those that we 
don't enough about that we need to send to a specialist to get 
further consultation.
    And staying within that construct, what are the areas of 
disaster mitigation do you believe that we know enough about in 
order to make a decision today as to what to do; and second, 
which of those that we need to send to the specialist by, for 
instance, and I believe, Mayor, you commented, the number of 
studies that were called for in this bill where we need to ask 
somebody else give us the benefit of your further thought 
before we solidify on what our solution would be? All of those 
questions are in the context of this legislation. To what 
degree does this legislation capture what you think is the 
proper diagnosis of the problem, prescription, and then 
submission for further consultation, and where you recommend 
that it be modified in order to comport with your assessment of 
the situation?
    Someone mentioned the issue of shelters in their remarks, 
and I would use that as one specific example. I know in our 
State I think a diagnosis of where are you going to put all 
these folks in the time of crisis would indicate that while we 
showed a very good ability, and I commend Mr. Myers 
specifically for that, to ramp up shelters in the face of the 
fire crisis and several thousands of people were housed on 
almost an hour-by-hour basis as a result of that, we still have 
a deficiency in structurally acceptable shelters for 
hurricanes, floods, and other potential large-scale 
disruptions. Do we know enough about that issue of deficiency 
to say now that here's what the Federal Government's role 
should be in assisting local communities in providing that 
capacity, or do we need to learn more about this before we 
determine what our prescription should be, and what are the 
questions that we ought to be asking of the specialist in that 
specific area so that we'll make more informed judgments in the 
future?
    So, I would appreciate if you could approach this issue 
from that medical model and give us the benefit of your 
suggestions so that we could incorporate them as we start the 
markup process.
    Senator Inhofe. Thank you, Senator.
    Senator Sessions?
    Mr. Sessions. Mr. Chairman, I also would submit some 
written questions. But I thank you, Mr. Chairman, for holding 
this hearing.
    I want to thank you for your participation. I look forward 
to studying your written remarks. I believe we're on to a 
project that could help our disaster areas and save the 
taxpayers some money at the same time. Thank you very much.
    Senator Inhofe. I thank you. And also with the presence of 
our committee chairman, a reminder that not only do we have our 
full committee meeting, but it's going to be in this room. So I 
think we had better prepare to call this to a halt.
    I would remind you again that we do have questions that 
you'll be receiving and we would like to get an early response 
because we're going to move this along pretty fast.
    I appreciate very much all of you coming and appreciate 
your testifying today. Thank you.
    The subcommittee is adjourned.
    [Whereupon, at 10:45 a.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
   Testimony of JamesL. Witt, Director, Federal Emergency Management 
                                 Agency
    Good morning Mr. Chairman, Senator Graham and members of the 
Committee. Thank you for the opportunity to be here before you today, 
and for the chance to express my appreciation for the support Congress 
has continued to provide FEMA.
    As we meet here today, FEMA staff, both full-time and reservists, 
are spread out across the country working with communities to help them 
respond to the losses and the misery that natural disasters leave in 
their wake. Whether it is the fires in Florida and Texas, the tornadoes 
that spun across the south and Midwest last spring, or the recent 
flooding in New England, all of these events have a tragic common 
denominator; a loss not only of lives and property, but hope as well.
    What makes me proud of our efforts at FEMA is that the assistance 
we deliver is a message to all of these different areas that the Nation 
cares about what has happened to them and wants to help. It is very 
important to remember that when we declare a disaster it is based on a 
stipulation from the State that the situation is beyond their capacity 
to respond. At that point, the help we deliver is making a difference 
in removing not just wreckage and debris, but removing doubts about a 
community's ability to recovery and prosper in the future.
    The future of emergency management, and FEMA's role in that future 
is a great part of what I want to talk about today. I have been blessed 
to serve a President who cares deeply about the affect disasters have 
on our people and their communities, as well as a Congress that has 
recognized and supported our efforts. And I am equally pleased to serve 
at an Agency that makes a big difference in peoples lives.
    Our staff works very hard. But we are also fortunate because we get 
to work as partners with some of the best people in the country; the 
public safety forces, the emergency managers, the floodplain managers, 
the private relief organizations that help out during disasters, and 
the local people in communities that are forced to respond under the 
most pressing circumstances.
    During my time at FEMA I have had the good fortune to meet many of 
these outstanding people across the country. I have met brave people 
determined to rebuild their homes and their communities and really 
giving people that always think of others first--whether its school 
children or the elderly--and how they can be helped after a disaster. 
We should celebrate the spirit of these people--they are an inspiration 
to all of us.
    But, starting today, I hope you'll join me in meeting these people 
before disasters occur. Through Project Impact, our predisaster 
mitigation program, we have begun to harness these energies and make 
meaningful changes in communities to lessen the effects of disaster.
    Hope doesn't have to follow a tragedy--hope can be there in the 
early steps we take to make our schools and businesses and homes safer 
and stronger.
    In that light, this is an historic hearing since your legislation 
provides increased legislative authority for predisaster mitigation. 
And that fact marks an important new phase in the evolution of 
emergency management. We appreciate the fact that the Senate's Draft 
Bill is authorizing this program and hope that the funding levels can 
match the real threats we face. The Administration has proposed an 
open-ended authorization, and the President's fiscal year 1999 Budget 
included a request of $50 million for this program. We believe that 
these levels will increase the actual awareness and implementation of 
mitigation measures.
    This needs to be a program that is flexible enough to fit the 
varying needs of a lot of different communities facing different 
threats. However, to be successful, this program needs to inspire 
confidence in FEMA's ability to be a steady and dependable partner with 
the business community. An authorization that decreases over time puts 
our commitment into question and decreases our capacity to reach out to 
many more communities across the country that face real risks of 
disaster damage and want to be a part of this new partnership.
    Over the last 5 years we have instituted a lot of changes at FEMA. 
Not change just for the sake of change, but changes that have both 
reduced the risk of future disasters and improved the delivery of 
assistance to disaster victims while cutting down on our administrative 
costs to provide that help. At every step of that process we have 
worked closely with our State emergency management partners, as well as 
the involved Committees of Congress, to improve both our disaster 
response and recovery programs and the efforts we are making to 
mitigate against the need for those programs.
    I would now like to review some of the changes we've made in our 
mitigation and disaster response and recovery programs and the 
difference those changes have made. In that discussion we will also 
comment on the provisions in the Senate's Draft Bill that affect these 
programs and provide our comments on those suggested changes.
Mitigation
    While I am proud of the way we have improved our programs, in both 
speed and quality of service, it is also very important to remember 
that we have also greatly improved our accountability for the funds 
that are spent for disaster relief. But we have to do more.
    We've got to change the way we deal with disasters or we are doomed 
to pay for poor planning in lost lives and lost property, over and over 
and over again. We must put an end to the damage, repair, damage and 
repair cycle. The most effective way to break this cycle and reduce the 
cost of disasters is by preventing them through mitigation. Money spent 
now on mitigation--either pre- or post-disaster--will be reflected in 
future budget requests and appropriations actions.
    Mitigation is the cornerstone of emergency management. It involves 
keeping homes away from floodplains, engineering bridges to withstand 
earthquakes, and promoting adoption and enforcement of effective 
building codes to protect property and people from natural hazards. 
Mitigation describes the ongoing effort at the Federal, State, local, 
and individual levels to lessen the impact of disasters upon our 
families, homes, communities and economy. Mitigation should be viewed 
as the fundamental means to decrease demands for disaster response 
resources.
    FEMA started emphasizing mitigation in 1993 with the creation of 
the Agency's Mitigation Directorate. In the aftermath of the 1993 
Midwest Floods, we worked with the Administration and the Congress to 
initiate a property buyout program that removed over 20,000 properties 
from the floodplain and returned them to open space land use. In fact, 
Senator Chafee was one of the leaders in this effort and was 
instrumental in achieving its passage.
    We have placed greater emphasis on rebuilding communities safer and 
stronger after disaster strikes and on preparing for risk before 
disaster strikes. We appreciate the work that has been done in the 
Senate Subcommittee's Draft Bill, which recognizes the contribution 
mitigation makes to reducing future impacts.
    Project Impact Our predisaster mitigation initiative, Project 
Impact, joins the public and private sectors in cities and towns across 
the Nation to build disaster-resistant communities. Project Impact's 
goal is to change the way America prevents and prepares for disasters. 
The initiative helps communities protect themselves from the 
devastating effects of natural disasters by taking actions that 
dramatically reduce disruption and loss. Project Impact operates on a 
common-sense damage-reduction approach, basing its work and planning on 
three simple principles: preventive actions must be decided at the 
local level; private sector participation is vital; and long-term 
efforts and investments in prevention measures are essential.
    This is government at its best, serving as a catalyst so that 
people have the resources and know-how to make a difference in their 
lives and their communities. The private sector is the key in the new 
way we are looking at this. When we meet with private sector 
representatives we ask them for three commitments: one, do something to 
protect your company; two, do something to protect your employees; and 
three, do something for your community. The response has been 
wonderfully rewarding.
    Building on the pilot program, 6 weeks ago we launched the 
initiative nationally by inviting 50 additional localities to become 
Project Impact communities. There is no doubt that this is a common 
sense approach for the way America deals with disasters. The incentive 
is clear: a disaster resistant community is able to bounce back from a 
natural disaster with far less loss of property and consequently much 
less cost for repairs. Moreover, the time lost from productive activity 
is minimized for both businesses and their employees.
    As I noted earlier, we would appreciate an authorization for the 
program similar to the Administration's proposal, which was open-ended. 
That would send a strong and positive message to the many communities 
across this country that are anxious to be a part of this new approach. 
Also, rather than indicating an intent to sunset a program of such 
promise, I believe we should agree to report to you on the program 
after the 5-year period and then have the committee decide what course 
to take. I believe strongly that the signal we need to send is that we 
are making a difference with hazard reduction through programs like the 
buyouts and Project Impact.
    We also believe it is important that Pre-Disaster Mitigation be a 
separate fund within the FEMA budget. A separate fund would allow us to 
better manage and support the program and the special administrative 
support it requires, such as travel to disaster-resistant communities 
to provide technical assistance and support.
    Given the level of interest and the number of communities in every 
State that would like to participate, we think the authorized levels of 
funding in the Subcommittee's Draft Bill are inadequate to do the 
necessary work at the local level. By reducing the level of funding 
each year we send a contradictory message, pointing to a lack of 
commitment from Federal partners. We would strongly encourage increased 
funding levels that would reflect a program with increasing 
participation by the business sector in communities of all sizes in all 
regions of the country facing many differing hazards.
    We also believe that there must be an emphasis on the protection of 
community infrastructure, which is a strong component of the current 
program. The more a community does to protect, for example, its water 
treatment facilities, the sooner that community can bounce back from a 
disaster event. FEMA enters this program as a partner, and a partner 
does not dictate choices. But we also want this to be a program 
dedicated specifically to mitigating against disaster threats, not a 
block grant for any community project. Also, we believe that the public 
education activities in the communities need to be a part of the 
program. Public education is key to informed support and involvement at 
the local level and we believe the legislation should encourage that 
work.
    Hazard Mitigation Grant Program (HMGP) Section 404 of the Stafford 
Act authorizes our Howard Mitigation Grant Program. HMGP enables 
mitigation measures to be implemented during immediate recovery from a 
disaster. The program's intent is to reduce the risk of future damage, 
hardship, loss, and suffering in an area affected by a major disaster, 
and to ultimately reduce the future needs for Federal disaster 
assistance by encouraging the building of an environment increasingly 
resistant to the effects of natural hazards.
    Under the HMGP, an amount equal to 15 percent of our total funds 
spent on a disaster may be spent specifically on hazard mitigation 
measures. Under the Senate Draft Bill this amount is raised up to 20 
percent. We believe this will have a significant and immediate impact 
in reducing disaster risks across the nation. This will provide greater 
resources to FEMA and the States to address repetitive flood loss and 
to take other mitigation measures such as seismic retrofitting and 
wind-resistance preventive measures.
    In addition to property buyouts, I have some examples of other 
types of things we've accomplished through this program. We've assisted 
towns in installing river icejam control structures to reduce 
downstream flooding. We've elevated buildings to protect them from 
flooding. We've strengthened structures to withstand seismic activity. 
We've helped State and local government develop mitigation plans.
    The types of activities permitted under the Hazard Mitigation Grant 
Program have made a great impact in areas affected by disasters. Let me 
give you an example. After the devastating Midwest floods of 1993, we 
were able to acquire thousands of flood-prone properties and move them 
out of the floodplain. The land was left in open space use for 
recreational or wetlands use. Two years later in 1995, when many of the 
same areas flooded again, the structures did not flood because they 
were out of harm's way. And emergency funds did not have to be spent 
protecting those same structures. And disaster funds were not spent 
repairing homes or rebuilding the infrastructure in this area. These 
formulations contribute to the great savings that come from mitigation.
    Given the demonstrated effectiveness of such mitigation actions, we 
believe that the President's proposal for Pre-Disaster Mitigation 
strongly supports our concentration on these efforts. The 
Subcommittee's Draft marks a departure from old approaches and offers 
the promise of real reductions, not only in disaster costs but also in 
the threats to our families and our communities.
    However, the provision that totally transfers Section 404 to the 
States is unnecessary in that many of these changes have already been 
accomplished and the statutory change may dissolve a needed and logical 
partnership rather than devolve responsibility.
    With mitigation programs maturing and real results based on 
repetitive disasters coming to light, it is apparent that this is the 
area in which we need to continue to move forward. This Committee is to 
be congratulated for recognizing the worth of mitigation in the bill. 
However, we strongly believe that the Pre-Disaster Mitigation section 
needs authorized levels which that will send a clear message that we 
are going to work with many communities to reduce the disaster risks 
they face.
    I would now like to address my comments to our disaster response 
and recovery programs; the changes we have made and the changes that 
are proposed in the legislation.
Individual Assistance
    The emphasis we have placed on making help to families and 
individuals more accessible and delivering that help faster has been a 
great benefit for the people affected and has also had rewarding 
results for the Federal Government. To speed up service and reduce the 
administrative costs of registering disaster assistance applicants and 
processing applications, FEMA consolidated multiple functions 
previously performed at individual disaster sites or regional of rices. 
In concert with that activity, FEMA has instituted an automated 
registration system for disaster victims at the National 
Teleregistration Centers.
    The Teleregistration Centers have resulted in not only making the 
application process easier for those affected by disasters but have 
also had a positive impact on customer service. People applying for 
assistance are helped promptly, get consistent answers, and are treated 
with respect. Also, the cost savings of on-line processing at a 
teleregistration center versus processing a paper application at a 
Disaster Application Center are approximately $46 per application. At 
an average of 350,000 registrations per year, the annual savings are 
approximately $16 million.
    After registrations are received, processing begins. This used to 
be a cumbersome process, done on an ad hoc basis and spread out among 
many field offices and regional offices. FEMA has now established three 
National Processing Service Centers. The consolidation of services 
permits FEMA to avoid the time delay and cost of establishing the 
necessary computer networks in disaster field locations each time there 
is a disaster.
    In addition, we now apply pen-based computer technology to help 
verify applicants' needs, which allows inspectors to record more 
rapidly and accurately the damage to homes and personal property. Use 
of this technology also saves the expense of manual data entry. 
Centralized processing saves approximately $75 per case over our former 
field processing. With an average of 300,000 cases processed annually, 
the savings are about $22.5 million per year.
    What is also noteworthy about these improvements is how they have 
accelerated the provision of aid. The 1-800 number we now employ, 
coupled with the other changes I have described, has shortened the time 
needed to deliver financial assistance for FEMA's Temporary Housing 
program from several weeks to several days.
    In fact, the average time it takes from the time a disaster victim 
calls in to the time that a housing inspector visits and their first 
temporary housing check is delivered, used to be measured in weeks. It 
is now about 7 to 10 days. In the near future we will be implementing 
Electronic Fund Transfer, making it possible for many victims to 
receive temporary housing funds even quicker.
    We have also combined logistical functions into three Territorial 
Logistics Centers. This means that instead of renting hundreds of 
warehouses across the country we have three focal points that can 
support our field activities at a moment's notice. Additionally, we do 
not re-invent the wheel--or pay for a new wheel--with each disaster 
declaration. Instead we retain our equipment, such as computers and fax 
machines, refurbish and upgrade the equipment, and send it back out for 
use in the next disaster.
    These changes we have described are relatively new, but they are 
positive improvements in the way we deliver supplemental disaster 
assistance. I will now address certain changes to Individual Assistance 
programs that are contemplated in the Senate's Draft Bill, which we are 
considering today.
    The bill provides for combining the temporary housing and 
Individual and Family Grants program, now administered separately, into 
a single program which can address the real and personal property needs 
of disaster victims, funded at 100 percent Federal share and 
administered by FEMA. At present the temporary housing program is 100 
percent federally funded and administered by FEMA, but the Individual 
and Family Grant Program (IFG) is funded 75 percent by FEMA, 25 percent 
by states, and administered by states. We do not object to this 
provision.
    Our specific hope is that we can have a consistent program. 
Currently several States are able to administer the IFG program 
effectively while others have a need for more staff and support to 
handle this occasional function. The proposal would be of great benefit 
to that second group. From FEMA's standpoint, any change that makes our 
role more consistent in each disaster would be a help to our staff in 
delivering good customer service in a cost-effective manner.
    Other provisions of the bill addressing the sale of manufactured 
homes after disasters and the ability to provide more extensive housing 
programs in remote island locations will help to reduce costs and 
improve services in those parts of FEMA's jurisdiction in which the 
standard financial assistance programs are not appropriate.
Public Assistance
    Public Assistance is our term for Infrastructure repair. FEMA's 
program to fund the repair or restoration of damaged infrastructure 
after a disaster is being refined and improved. This improvement will 
both reduce administrative costs and, more importantly, streamline our 
processes for our State and local partners.
    We've redesigned our Public Assistance program to improve customer 
service to applicants and increase satisfaction among state and local 
participants, to expedite the obligation of Federal grant money, and to 
reduce the administrative costs of disaster management. The New Public 
Assistance program goals are achieved by organizing recovery around the 
needs of the applicant. The New PA program consists of four principal 
components:
    Process.--The process was redesigned from preliminary damage 
assessment to closeout, resulting in the creation of a partnership 
among FEMA, State and local participants utilizing the strengths of 
each.
    Policy.--Our policy goals are to simplify and clarify policy, make 
policy information openly available to our customers, and utilize the 
Internet for policy information distribution
    People.--New roles and responsibilities were created within the PA 
work force, as well as a redefinition of existing ones, and training 
and credentialing will be required.
    Performance.--Performance measures have been developed to assure 
compliance with GPRA, and ensure continual program improvement and 
customer satisfaction.
    A pilot test was conducted jointly with the Commonwealth of 
Kentucky on a Presidentially declared disaster from May to July 1998. 
The pilot provided an opportunity to simulate a full-scale operation of 
the New PA program in a controlled real-time environment, allowing for 
the validation and refinement of the new process prior to organization-
wide implementation. The pilot confirmed the feasibility of the New PA 
program, identified key aspects of the redesign that may require change 
and gauged the organizational inclination to change its culture in 
support of the new process. The pilot successfully demonstrated the 
following:
    <bullet>  The ability of applicants to formulate eligible scopes of 
work and cost estimates The value of a single point of coordination to 
assist applicants The ability to expediently obligate funds to the 
state and effectively manage quicker grant close-outs The ability to 
identify and address Hazard Mitigation grant opportunities and other 
Special Considerations issues early in the process
    <bullet>  The ability to establish an environment of mutual trust 
and respect with the Commonwealth and local applicants
    Two key observations of the pilot process were----
    <bullet>  95 percent of all projects (403 out of 422 total) were 
under the $47,100 small project threshold resulting in significant 
administrative savings by having the applicant, rather than FEMA and 
State staff, write Damage Survey Reports.
    <bullet>  80 percent of projects were obligated within 60 days, 
greatly contributing to increased customer satisfaction.
    Our Public Assistance Grant Acceleration Program is currently being 
implemented in the Northridge Long-term Recovery Area Of lice. Under 
this program, a fixed level of funding is provided to cover the 
estimated total cost of eligible repair to damaged facilities. Rather 
than wait until final actual repair costs are determined, settlement 
offers are made based upon industry standard estimates, bringing 
administrative closure to long-term projects. This Grant Acceleration 
Program is the model for the cost-estimating procedure that the 
Senate's Draft Bill will help us to implement. Thus far, 99 projects 
have been accepted for a total of $163 million.
    We've also redesigned our Public Assistance Program as a whole. The 
program now focuses on customer service by emphasizing effective 
partnering among FEMA, State, and local governments. We have worked 
closely with representatives from State emergency management offices 
and local officials to ensure that the redesigned program reflects 
their concerns and needs. The result is a program that focuses on 
streamlining operations, clarifies program eligibility and policies, 
simplifies the process, and forges stronger alliances with State and 
local governments. This helps communities recover from disasters 
through more efficient and consistent program delivery.
    We appreciate some of the provisions in the Draft Bill, such as the 
cost-estimates provision I noted earlier, that will help us to carry 
out our new vision for the Public Assistance program. also would 
support pilot projects that would contribute to further responsible 
streamlining of Section 406 under which the Public Assistance program 
operates.
    I hope I have been able to give you a better understanding of not 
only how FEMA regards certain provisions in the Senate Subcommittee's 
Draft Bill but also, generally, how FEMA has been operating over the 
last 5 years. I have highlighted some of the steps we have taken to cut 
some of those costs, particularly in mitigating against future 
disasters and their associated costs. These steps are significant and I 
am especially proud that they have resulted in not just cost 
reductions, but better service for the people most in need--the 
disaster victims and communities who have been devastated by disaster 
events.
    Just as with predisaster mitigation, this hearing is a good example 
of how we are able to discuss our emergency management policies outside 
of the context of an actual disaster event and consider what we can do 
to reduce the pain and suffering caused by disasters through sound 
public policy. While we respectfully object to some provisions of the 
bill you are considering, we also appreciate the careful attention you 
are giving to the work we do. It matters to millions of Americans and 
getting it right is important. Any changes we make will be reflected in 
the depth and quality of not only our response to disasters in the 
future, but also our ability to reduce their impact on our communities.
    I thank you for your time and attention. I deeply appreciate the 
support you have given me and all of the great FEMA staff since I came 
into this job. The confidence you have shown in us has helped us do a 
job that matters to people in great distress. I am happy to answer any 
questions you might have.
                                 ______
                                 
                  Federal Emergency Management Agency
                             project impact
Community Service
    <bullet>  College student installing non-structural earthquake 
mitigation measure for low-income housing resident (Oakland, CA);
    <bullet>  High school student clearing yard debris that would pose 
a hazard in the event of a hurricane (Wilmington, NC);
    <bullet>  Volunteers installing donated hurricane shutters in low-
income senior citizen neighborhood (Deerfield Beach, FL);
    <bullet>  Newspaper article on college students participating in 
flood damage reduction activities in Randolph/Tucker Counties, West 
Virginia.
Individual Empowerment
    <bullet>  Home workshops on hurricane damage prevention measures 
available from local retailers;
    <bullet>  Hazard Mitigation Fact Sheets--mitigation measures to 
protect homes and businesses;
    <bullet>  Newspaper article on Seattle, Washington's Self-help Home 
Earthquake Retrofit Course available through neighborhood community 
centers.
Financial Incentives
    <bullet>  Citizens National Bank of Elkins, WV, display to promote 
the availability of flood mitigation loans (Bank President and FEMA 
Director James L. Witt in forefront);
    <bullet>  Financial institutions developing mitigation loan 
packages in Project Impact communities;
    <bullet>  Merchant & Marine Bank of Pascagoula, MS, hurricane 
season flyer to announce the availability of reduced rate mitigation 
loans.
                               __________
 Testimony of the Honorable Hal Daub, Mayor, Omaha, NE, Member of the 
Board of Directors of the National League of Cities, and Immediate Past 
   Chairman of Public Safety and Crime Prevention Steering Committee
    Good morning, Mr. Chairman, Senator Graham and members of the 
subcommittee. I want to thank you for inviting me to testify this 
morning on behalf of the National League of Cities (NLC). I am pleased 
to represent NLC, the largest and oldest organization representing some 
140,000 municipal elected leaders from nearly 17,000 cities and towns.
    I am in my second term as mayor of Omaha, Nebraska, moving up after 
service in the U.S. House of Representatives from 1981-1989. Currently 
I am a member of the Board of Directors of the National League of 
Cities, and last year I served as the Chairman of NLC's Public Safety 
and Crime Prevention Steering Committee which is responsible for 
developing NLC policy on all issues related to public safety. This 
committee considers and recommends policy related to all aspects of 
natural and manmade disasters. I am testifying for NLC today as a 
member of the organization's board.
    Before I present NLC's comments on the ``Robert T. Stafford 
Disaster Relief and Emergency Assistance Act,'' I would like to take 
this opportunity to thank you and your staff for your outreach to 
cities and other stakeholders with roles in disaster preparedness, 
response, recovery and mitigation.
    When a community is overwhelmed by a major disaster, the local 
government must look to the State and federal government for assistance 
and to coordinate response and recovery activities. So, it is important 
that we take the same approach as we work with your subcommittee, FEMA 
and other stakeholders to develop authorizing language for Project 
Impact.
    NLC is committed to a balanced federal budget and deficit reduction 
which requires us to work with all levels of government to actually 
reduce costs. We believe this must and can be done without simply 
shifting federal responsibilities and costs to state and local 
governments. And we believe an increasing number of severe disasters, 
as well as increased urbanization and other factors, are largely 
responsible for escalating federal, state, and local disaster-related 
costs.
    The offsets needed in recent years for federal supplemental 
appropriations to pay for disasters have largely come out of programs 
of great importance to cities. So it is no surprise that NLC members 
support reducing the need for supplementals through cost effective 
activities to substantially reduce the risk of future damage, hardship, 
and suffering from major disasters.
    Almost two-thirds of federal disaster costs are from damage to 
public facilities and infrastructure. And we know all disasters are 
local. Thus it is essential that responsible local officials, both 
elected and professional emergency personnel, are engaged on a 
permanent basis in activities to increase our overall capacity to 
identify and assess disaster risks and to advance established 
mitigation strategies and priorities.
Title I--Predisaster Hazard Mitigation
    NLC is very pleased that FEMA has agreed to work with you on this 
legislation to establish State and local predisaster mitigation 
partnerships which will actively engage the private sector and 
nonprofit organizations in creating disaster resistant communities. We 
believe this will help improve and expand the capacity for effective 
mitigation activities in communities across the country.
    I want to reiterate here NLC's commitment and offers to work with 
FEMA to help increase the awareness of local officials, the business 
community, and the general public of natural hazards and what they have 
cost or could cost if we fail to reduce them through hazard risk 
mitigation. (See attached letters.)
    We fully support engaging the private sector in mitigation 
activities to reduce damage to business and private property and to get 
their support for developing disaster resistant public facilities and 
infrastructure. Also, it is essential that we encourage the private 
sector to limit, and where possible prevent, significant economic 
disruption following disasters. The health of our communities and our 
tax base depend on this.
    Throughout this Act there is emphasis placed on the importance of 
federal support to and engagement of State and local governments to 
accomplish implementation of effective mitigation measures. We are 
pleased that States are called on to engage local governments in 
development of our comprehensive mitigation plans and programs, as well 
as in setting statewide priorities. This involvement will help local 
officials begin to recognize and analyze existing hazards and to learn 
how they can be reduced or eliminated through already proven mitigation 
approaches. We also expect FEMA to provide states and localities, in a 
timely fashion, information on the successes of Project Impact as they 
develop. This should include examples of how cities succeed in bringing 
the business and nonprofit sectors in as partners to create disaster 
resistant communities.
    This involvement of cities will build on the important working 
relationships most cities already have with their state emergency 
management offices. Seed money from FEMA will help us initiate 
community-based mitigation activities and help cities leverage 
investment from other federal agencies, our state governments, and the 
private sector.
    Setting criteria and recognizing meaningful and definable outcomes 
are critical if we are to determine what specific mitigation activities 
work and how well they work in saving lives, reducing recovery costs, 
and preventing major disruption in local and regional economies. The 
criteria you set in this Act will also facilitate objective selection 
by states of the localities recommended to the President for 
predisaster mitigation assistance.
    I would like to comment on the Federal Share for mitigation which 
this Act would establish. A federal contribution of ``up to 75 
percent'' leaves FEMA with authority to cover far less than 75 percent 
and could complicate a city's ability to develop a realistic mitigation 
proposal which could compete for federal funding. In many cases we are 
talking about rebuilding infrastructureprojects which can often require 
capital debts.
    The issuance of municipal debt requires a long-term sure source of 
revenue to ensure full and timely payment to our bondholders. 
Consequently, the flexibility to FEMA to change its share can wreak 
havoc in our ability to make our own capital improvements and 
commitments.
    NLC applauds the proposal in the Act to create an interagency task 
force to coordinate all predisaster mitigation administered by the 
federal government. If the task force functions as it should, it could 
reduce duplication and result in efficient use of federal funds. It 
would also be helpful if the task force could serve as the place where 
records of overall federal predisaster mitigation assistance are kept. 
A comparative review of this assistance and its effectiveness could be 
most helpful for guidance in the future.
    On the Act's sunset in 2003, we are hopeful that reauthorization of 
Project Impact, or an improved approach to predisaster mitigation, 
would be considered if Project Impact proves to result in significant 
local, state and federal savings. If we are successful, more and more 
communities will initiate mitigation activities and may need some seed 
money to help them move toward becoming truly disaster resistant 
communities.
Section 202. Assistance to Repair, Restore, Reconstruct, or Replace 
        Damaged Facilities
    Under this section of the Act, I would like to comment briefly on 
several issues of concern for cities:
    The requirement that a nonprofit must apply to the SEA for a 
disaster loan and be rejected or receive an insufficient amount to make 
repairs before it could receive assistance could create a serious 
problem. For example, if the Red Cross were the primary service 
provider for persons and families displaced by a disaster and Red Cross 
shelters were damaged and unsafe, wouldn't it be important that needed 
repairs be funded immediately? Wouldn't waiting for SBA approval or 
rejection of a loan request create a hardship after a major disaster?
    I would like to encourage the subcommittee to include in your 
Report on this Act language directing FEMA to provide opportunities for 
public comment prior to the adoption of any new or modified policies 
that would have potential funding impacts on state and local 
governments, and that the Agency does not apply such policies 
retroactively. It is essential that FEMA adhere to ``due process'' in 
developing guidance and regulations for this Act, particularly if FEMA 
chooses to clarify what public facilities are determined necessary to 
meet a need for governmental services and functions after a disaster.
    NLC is pleased that the Act includes under ``Other Eligible 
Activities'' the costs of the National Guard and Prison Labor as well 
as base and overtime wages for city employees and extra hires who 
perform eligible work plus their fringe benefits as appropriate.
Recommendations
    NLC fully supports the recommendations in the bill to:
    <bullet>  evaluate after 18 months the implementation of 
predisaster mitigation and make recommendations for a process to 
transfer more authority to states and localities for administering the 
program and a process for considering private sector predisaster 
mitigation initiatives;
    <bullet>  establish a cost estimation procedure;
    <bullet>  have the OCC conduct a study to examine the effectiveness 
of this hazard mitigation program, including a review of its goals and 
objectives, the cost benefit in terms of mitigation, disaster 
avoidance, and dollars saved and report this to Congress within 3 
years;
    <bullet>  have the OCC estimate the reduction in Federal disaster 
assistance resulting from implementation of the Act;
    <bullet>  determine the current and future availability of disaster 
insurance for public infrastructure; and
    <bullet>  examine analytically the major disasters and emergencies 
which have been declared since 1974, describing the implied criteria 
for these declarations and how they have changed over time, and make 
recommendations for appropriate future criteria that should be 
considered when making disaster and emergency declarations under the 
Stafford Act.
    In addition to these studies and reports recommended in this 
legislation, NLC would like to encourage the subcommittee to commission 
a study to provide us all with the best possible information on actual 
disaster costs incurred by local, state and federal levels of 
government. This information is essential if we are to determine if 
predisaster mitigation really reduces disaster costs. NLC would be 
pleased to help with collection of this data.
    Mr. Chairman, I want to thank you again for inviting me to testify 
on behalf of the National League of Cities and I urge you to look to 
the League for continued cooperation as we work together to launch a 
national mitigation program and partnerships to reduce disaster costs 
at all levels of government.
                                 National League of Cities,
                                                  February 9, 1998.

    The Honorable James Lee Witt, Director,
    Federal Emergency Management Agency,
    500 C Street SW,
    Washington, DC 20472

    Dear Director Witt: As President of the National League of Cities 
(NLC), I want to congratulate you on the excellent job you are doing as 
Director of the Federal Emergency Management Agency. I also 
wholeheartedly agree with your long-term policy focus on preventing 
disaster losses through mitigation and disaster preparedness. This 
could benefit all Americans, particularly taxpayers, and could prevent 
catastrophic damage to private and public property. This focus will be 
central to protecting vital public infrastructure.
    NLC is a national organization representing the interests of 49 
state municipal leagues, more than 135,000 locally elected officials, 
and 1,400 direct member cities. Through the state leagues, we work with 
17,000 municipalities.
    Over the years, cities have worked closely with FEMA when 
overwhelmed by both natural disasters and terrorists incidents. 
Recovery in these instances would not have been possible without help 
from the federal government, principally FEMA. NLC's staff has worked 
productively with your staff to encourage cities to improve disaster 
preparedness and to reduce, through mitigation and enlightened zoning 
and land use planning, loss of life and damage to both public and 
private property. We would like to see even greater collaboration 
between FEMA and NLC. I believe NLC could come to the table with a 
variety of ideas and suggestions for cost reductions. Currently, we are 
working with a coalition to develop proactive approaches to disaster 
cost reduction.
    Last fall, NLC in cooperation with a broad coalition of national, 
state and local groups opposed many of the Stafford Act amendments FEMA 
recommended to Congress and the Senate appropriators attached to 
S.1034. While we supported many of the provisions in the bill designed 
to reduce costs at all levels of government, we opposed the proposals 
which would have simply shifted federal costs to state and local 
governments. NLC's key priorities are federal deficit reduction and a 
balanced budget. We believe this should be accomplished through 
equitable cuts across the federal budget, not through shifts of 
responsibilities and costs to local government. Also, appropriators 
regularly dip into programs important to cities to offset disaster 
supplementals. For these reasons, NLC would like to work more actively 
with FEMA and Congress to find ways to reduce natural disaster costs.
    With this in mind, NLC would like to augment FEMA's efforts to 
educate local elected officials about the importance of disaster 
preparedness and mitigation. Damage to and loss of public property from 
natural disasters represents, by far, the bulk of the costs stemming 
from these events. Disaster costs will never diminish significantly 
without reducing the vulnerability of public property.
    In light of this, we would like to help in any way we can with your 
Project Impact Initiative. We would be pleased to work with FEMA to 
develop criteria for Project Impact and to contribute ideas toward an 
equitable selection process. The criteria could include performance 
measures to evaluate progress and report successes A state-by-state 
competition might be the best way to encourage communities to learn 
about the project and to communicate with their state emergency 
managers. Although Project Impact may only be able to reward a grant to 
one community in each state, increased understanding of the importance 
of mitigation and mitigation activities would occur in many localities.
    Please consider these offers and suggestions and let me know what 
you think. Have your staff contact Frank Shafroth, NLC's Director of 
Policy and Federal Relations, to discuss how we can increase our 
cooperation. Mr. Shafroth can be reached at (202) 626-3023.
            Sincerely,
                               Brian J. O'Neill, President,
                                      Councilman, Philadelphia, PA.
                                 ______
                                 
                                 National League of Cities,
                                                    August 8, 1997.

    Mr. Brian Cowan, Program Assistant,
    Office of Policy and Regional Operations
    FEMA
    500 C Street, SW,
    Washington, DC 20472.

    Dear Brian: Thanks so much for meeting with us this morning. I know 
you have plenty of responsibilities without having to take lots of time 
with the concerns of NACo and NLC. However, I am optimistic we may be 
able to make your job easier and ultimately contribute to the short and 
long-term success of FEMA's Disaster Resistant Communities Initiative. 
As I said this morning, I believe NLC must find effective ways to grab 
the attention of elected officials and get them seriously committed to 
natural disaster mitigation in their communities.
    On my return to the office, I checked our direct member list and 
our committee membership rosters. Deerfield Beach is an active direct 
member of NLC and they have one of the city's commissioners on our 
Public Safety and Crime Prevention Committee (PSCP). Commissioner 
Gwendolen Clarke-Reed of Deerfield Beach is committed to improving how 
her city deals with natural disasters before, during and after they 
occur. I am sure she is enthusiastic about FEMA's Disaster Resistant 
Communities Initiative. I am also confident that she will report to the 
PSCP Committee on the progress of the initiative and we could encourage 
her to write an article for the paper when things have progressed to a 
stage that there is something positive to report. We could also 
encourage the mayor and/or the commissioner to participate in workshops 
at our semiannual meetings. In addition, the Mayor and Gwen will 
probably share the results of the initiative with all Florida cities 
through the Florida League of Cities. These are suggestions on what we 
can do in the context of Deerfield Beach to build, within our 
membership better understanding of the importance of mitigation, as 
well as more interest and enthusiasm at the local level for moving 
forward with appropriate mitigation plans and activities.
    Other direct members of NLC which have been selected to participate 
in this initiative are: Oakland, CA, Pascagoula, MI, Seattle, WA, and 
Wilmington, NC. We can report their progress occasionally if this is 
appropriate or do something that might include all of them at some type 
of event or in a special publication possibly.
    Attached are several articles from ``Quality Cities, April, 1996'' 
published by the Florida League of Cities. I get the impression that 
counties are indeed responsible for emergency management in Florida. 
However, as I read between the lines, whatever the counties have done 
may not seem sufficient in the eyes of some local governments. As the 
articles indicate, many cities have hired or designated an employee to 
be the local emergency manager. None-the-less, even with a local 
manager I am certain there is still considerable local dependence on 
the counties to take the lead.
    Again, many thanks for meeting with Don Murray and me this morning. 
Do let me know where and when we can help generate interest among local 
governments in the mitigation initiatives FEMA will undertake with 
seven localities and the progress we expect they will demonstrate.
            Sincerely,
                                         Cameron D. Whitman
                                         Senior Legislative Counsel
                               __________
 Statement of Joseph F. Myers, Director, Florida Division of Emergency 
                               Management
    Mr. Chairman, and Members of the Subcommittee: Thank you for 
allowing the National Emergency Management Association (NEMA) the 
opportunity to provide comments on the proposed ``Disaster Mitigation 
Act of 1998.'' NEMA represents state and territorial emergency 
management directors who are responsible to their governors for 
developing and maintaining an integrated and responsive emergency 
management system.
    My name is Joseph F. Myers. I am the director of Florida's Division 
of Emergency Management. For the past 2 years, I have had the pleasure 
to serve as Chairman of NEMA's Mitigation Committee. It has been NEMA's 
contention that the most effective way to reduce our nation's 
vulnerability to the impacts of disasters is through the application of 
mitigation programs while maintaining an effective preparedness 
capability. We believe the proposed legislation supports this shared 
goal of reducing our nations vulnerability to disasters and the costs 
in lost lives and property.
    First, let me commend this committee for taking the time to hold 
hearings on this very important topic. Revising the Stafford Act to 
address predisaster mitigation, streamline assistance and reduce costs 
is very important to every state in this nation. It is particularly 
appropriate to consider such changes in the authorizing committee, 
where those who have the ability to consider issues of this magnitude 
can reflect upon the far reaching impacts these changes will have on 
the entire emergency management community, with its many varied but 
related Federal and state programs and stakeholders.
    This bill properly focuses our collective efforts toward a 
sustainable system of managing disasters and their consequences. This 
bill prioritizes the use of our resources and recognizes the critical 
importance of breaking an ever more expensive cycle of destruction and 
rebuilding. We should become focused on creating sustainable 
communities, able to reduce the impacts of disasters, thereby reducing 
our dependence on federal, state, and local recovery dollars. This 
legislation is an important milestone in the effort to modify the built 
environment and ensure both pro- and post disaster construction and 
development practices that will survive disasters. This legislation 
dovetails with our emphasis on streamlining current assistance 
programs, expediting the recovery of those who need it most, the 
victims.
    NEMA applauds the Federal Emergency Management Agency for their 
aggressive efforts to improve our nations' emergency management system. 
Under the leadership of Director James Lee Witt, FEMA has worked hard 
in partnership with NEMA on several new initiatives that, given time, 
will radically improve our emergency management system. Focused efforts 
to close out old disasters; implementing the Public Assistance 
streamlining initiative; and, designating capable states to become 
``Mitigation Management States,'' to reduce costs and streamline the 
Hazard Mitigation Grant Program, are just some of Director Witt's 
innovations. Each of these initiatives have already had dramatic, and 
positive impacts on state and local emergency management agencies.
    NEMA and FEMA have worked in tandem on initiatives to cut disaster 
related costs. NEMA and FEMA have addressed many proposals and working 
together, we believe that mutually agreeable solutions can be found. At 
a recent meeting with Director Witt, the NEMA leadership committed to 
work in partnership with FEMA to develop fair and objective disaster 
declaration criteria, a Congressional concern for many years. 
Declaration criteria will help state emergency management agencies 
know, before a disaster strikes, the necessary thresholds that trigger 
a major disaster declaration. This knowledge will save time, minimize 
false expectations, and ensure equity in declaration decisions.
    Overall, our impression of the proposed ``Disaster Mitigation Act 
of 1998'' is very favorable. We believe, if passed, it will have a 
beneficial impact on reducing the spiraling costs of disasters. Both 
NEMA and FEMA have emphasized the importance of initiating predisaster 
mitigation efforts as a powerful way to reduce our increasing 
vulnerability to natural and non natural disasters. The bill will also 
streamline components of the Public and Individual Assistance Programs 
and reduce the costs of these programs.
    More specifically, we agree with the concept underlying Section 
101. The emergency management community must institutionalize the focus 
on mitigation if we are to reverse the escalating costs of disasters. 
Without effective mitigation at both the federal, state and local level 
we will be kept in a cycle of repetitive losses, which disrupt lives 
and destroys property. At the same time we must be consolidate and 
continue to improve on our preparedness and response initiatives.
    While we applaud the efforts to engage the states in the selection 
of those communities who will benefit from the predisaster mitigation 
funding, we realize the President will ultimately determine which of 
these communities will be selected. We encourage the Committee to 
revise the selection process to be a shared responsibility of the 
President and the Governors of each state. This will ensure that the 
selection process will benefit from the unique insights of the 
Governors, and enhance the ``partnership'' concept between the Federal 
Government, each state, and each eligible community.
    A five-year commitment of significant funding to this mitigation 
effort is equally appreciated. If mitigation is going to have a real 
impact on cost reduction, we must take the initiative to fund it at 
levels that will ensure success. Therefore, we recommend that the level 
of funding remain, at a minimum, consistent with the first year's 
allocation of $50 million, and not decrease each succeeding year. This 
will ensure a sustained and strategic effort into the new millennium.
    In Section 107, we applaud increasing the contribution for the 
Hazard Mitigation Grant Program from the current 15 percent, to the 
proposed 20 percent. This will provide more funds to local and state 
applicants for mitigation projects, and reduce disaster costs by 
reducing the risk of loss of lives and property.
    Replacement of the sliding scale for ``associated costs'' in the 
public assistance program, with the more equitable ``management 
costs,'' as defined in Section 201 will reduce the burden of 
determining these costs, and expedite the overall public assistance 
program at the state level. This will result in a more reasonable and 
understandable process for all parties and creates an incentive for 
progress to closure of disasters.
    In Section 202, we appreciate the added incentive found in 
Subsection (3) which will encourage eligible applicants who want to 
undertake an alternate project that will mitigate future disaster 
damages. Allowing for ninety percent Federal contribution toward 
alternate infrastructure projects is an incentive for good decisions, 
and at the same time, reduces future costs by encouraging facility 
owners to move away from high risk areas.
    Using the ``estimate of eligible costs'' will dramatically expedite 
the public assistance process and implement the concepts found in 
FEMA's Public Assistance streamlining initiative. However, we recommend 
that the spread between under/over estimating be tightened from the 
proposed 80 percent-120 percent, to one that is more equitable, i.e., 
90 percent-110 percent. Knowing there will be multi-million dollar 
public assistance projects, underestimating the cost by 20 percent 
could be devastating to the applicant.
    New Section 203 amends the Federal Assistance Programs available to 
individuals and households to create an expedited delivery system for 
human service needs of disaster victims. Although some current State 
responsibilities are shifted from the Governor to the President the 
process is ``in consultation and coordination with the Governor'' and 
should result in a more cost effective program overall. Existing 
flexibility in the emergency housing repair program should be 
maintained to give FEMA every tool needed to match family assistance 
with the needs resulting from a disaster.
    We recommend consideration of additional flexibility in Individual 
Assistance Declarations. When a local jurisdiction is declared for 
Individual Assistance we would propose that the contiguous 
jurisdictions be included as eligible for disaster assistance. This 
would comport with the current regulations of the Small Business 
Administration and the United States Department of Agriculture in their 
agency declaration process. Such a measure would eliminate 
discrimination against those who happen to live on the other side of 
the river.
    We applaud the provision found at Section 205 which formally 
recognizes the benefits of creating ``management states'' who have 
accepted more responsibility in managing the Hazard Mitigation Grant 
Program. Florida was the first state in the nation to be designated a 
Management State, and it has had a very positive impact, expediting the 
entire HMGP process and reducing associated costs. We would encourage 
those states with the capability and desire to take this role to do so.
    Recognizing Congress' desire and need to streamline the public 
assistance program we appreciate the Committee's willingness to let 
FEMA's Public Assistance (PA) streamlining initiative have time to 
mature. NEMA believes the PA streamlining will prove itself with time, 
and should be given the chance to experience success. Already, in those 
states that have used this new system on a pilot basis (i.e., 
Kentucky), they report it works well and has great potential.
    Lastly, I would like to recommend the Committee consider a review 
of Section 420 (fire suppression) of the current Stafford Act. Having 
gone through what the U.S. Forest Service is calling the most complex 
fire event in the history of the nation, I wholeheartedly recommend the 
Fire Suppression Grant process be reviewed. The current process of 
securing a fire suppression grant is stressful and the fiscal 
management is very difficult. The process of obtaining Federal 
assistance needs to be clarified. Further, FEMA should assume the 
leadership role in all disasters, including major fires. There needs to 
be one agency in charge in order to mitigate any confusion. We believe 
as more and more of our nations' population enter into the urban/
wildland interface, we will see increasingly devastating forest fires 
directly impacting communities. As a nation, we must look beyond the 
traditional wind and water issues in preparing for disasters. We find 
the need to place more emphasis upon studying the overall issue of the 
urban/wildland interface, and the disastrous consequences of wild fire 
on these interfaces. We believe the consequences of urban interface 
fires can be mitigated. We also believe a fire suppression grant should 
generate funding for the Hazard Mitigation Grant Program, something it 
currently does not do.
    In summary, NEMA and FEMA have labored very hard to encourage the 
creation of predisaster hazard mitigation programs and appropriate 
funding levels, as well as streamlining the public assistance process. 
This bill puts us on the right track, though we should constantly 
strive to refine the process. NEMA fully endorses the concept of 
reduction of future disaster costs through predisaster hazard 
mitigation programs. It is the only solution that will have meaningful 
impact on future disaster cost reductions. We support your efforts to 
institutionalize this concept.
    NEMA and each of its member State Directors thanks you for this 
opportunity to speak to you today. We look forward to your continued 
efforts in this endeavor.
                               __________
Statement of Albert Ashwood, Director, Oklahoma Department of Emergency 
                               Management
    Mr. Chairman and members of the Subcommittee: Thank you for 
inviting the State of Oklahoma to present testimony before your 
subcommittee today. We commend you for your ongoing efforts to 
strengthen and enhance the nation's emergency management system and we 
look forward to providing any assistance to you for this endeavor. From 
our position, you subcommittee recognizes that the only way we will 
truly reduce disaster costs and the significant impacts of disasters on 
our communities is through mitigation, more specifically, predisaster 
mitigation.
Background
    The focus of today's hearing is predisaster mitigation and the 
streamlining and cost reduction of the emergency management process. 
Since 1900, Oklahoma has experienced 17 federally declared disasters, 
which include 7 fire suppression declarations. Federal, State and local 
dollars that were used within the State for each of the three recovery 
programs--Individual Assistance, Infrastructure and Mitigation--during 
this period totals over $80 million. However, an important point to 
consider here is that this figure represents only the assistance 
identified as a result of the requirements to track disaster 
expenditures. Insured losses; uninsured or under-insured losses; 
unreported labor and construction costs; and other miscellaneous costs 
would add even more dollars to that total. In addition , in 1994, 
Oklahoma enacted State Public Assistance (infrastructure) disaster 
declaration procedures. This legislation provides for public assistance 
to political subdivisions up to $100,000 per calendar year, per 
jurisdiction, for nonfederally declared disasters that are declared by 
the Governor. For this State program, we have expended nearly $3 
million of State funds. Our program does not require a local match for 
these funds. However, in each instance the local damages far exceeded 
the amount that could be repaired or replaced with funds provided by 
the State. As you can see, disaster costs, and methods that can be 
implemented to reduce those costs are very important issues.
The Disaster Mitigation Act of 1998
    We strongly concur with the intent of the bill as written. Each of 
us at the Federal, state, local and private level should do everything 
within our means to reduce the costs of disasters before they occur. 
Title I--Predisaster Hazard Mitigation--will assist in the endeavor. We 
encourage all of our communities to identify and assess their risks; 
implement measures to reduce disaster losses; and ensure that critical 
facilities, public infrastructure, and lifelines will continue to 
function after a disaster. At the same time we are encouraging 
communities to do this, we are also advocating that the continuance of 
Federal assistance might be in jeopardy unless respective communities 
start helping themselves first, before a disaster occurs. Please 
understand that we fully concur with a predisaster hazard mitigation 
program, but we are trying to convince the communities of their 
responsibilities relative to developing a unified effort through local 
partnerships, identifying nonFederal resources, and initiating a strong 
commitment to long-term mitigation projects that can be funded locally. 
In addition, these local initiatives should be identified in detail in 
the local all-hazards mitigation plan.
    A review of Title I discloses that we may need clarification of the 
following items:
    <bullet>  Provides the opportunity to fund hazard mitigation 
measures that the State or local government determines to be necessary.
    <bullet>  Providing care to individuals is a paramount concern in 
any emergency situation. For example, we are currently experiencing 
drought conditions in Oklahoma, as are other states as well. We have 
convened the appropriate State Agency Directors, their Federal 
counterparts, volunteer agencies, and private sector businesses, to 
activate the Oklahoma State Drought Management Plan. This plan focuses 
on fire suppression, water shortages, heat related problems and 
agricultural losses. This is a proactive step to protect our Oklahoma 
citizens. The emergency management process as relates to Individual 
Assistance is a crucial link in providing food, shelter and life-
sustaining services to each Oklahoman. We in Oklahoma learned a very 
valuable lesson April 19, 1995, and the Oklahoma disaster service 
community continues to provide essential services to many of those 
affected by the Murrah Building bombing. From this lesson, we know that 
early coordination is the key to sustaining a reasonable quality of 
life for those affected by disasters. We must remember that a disaster 
does not end when the immediate response is completed. For those 
affected families, the disaster has only begun.
    We concur with state administration of the hazard mitigation 
assistance program. The wording of the draft bill enables each state to 
conduct an assessment of its abilities and capabilities to participate 
as a ``managing state'', along with the flexibility to participate in 
the program when the time is right. As defined long-term, each state 
should strive to become a managing state; however, local capabilities 
impact on the final decision. We have already participated in some of 
this coordination, and it would appear to be a seamless process to 
become a ``management state.''
    We concur in concept with the streamlining of damaged facilities 
program. Since the program is still under development, we hesitate to 
concur fully until we have had a chance to review the new program in 
its entirety. We have been asked from the start of this initiative to 
review and provide comments relative to development of the program, and 
it appears that the ``new PA Program,'' currently under development by 
FEMA will reduce the administrative requirements of the current 
program, as well as be more responsive to all eligible applicants. 
Further, I am a member of the National Emergency Management Association 
Response and Recovery Committee. Be assured that this program is being 
evaluated thoroughly at that level also. Streamlining the process is 
long overdue, and we look forward to the new program.
Summary
    We in Oklahoma share your concern about the rising costs of 
disasters. We encourage you to explore all opportunities to initiate 
cost-reducing measures such as predisaster hazard mitigation. Devolving 
more authority for the Hazard Mitigation Grant Program and the Public 
Assistance Program will definitely reduce administrative costs, 
eliminate duplication and streamline the entire process. The ultimate 
benefactors will be disaster victims who will receive improved 
services. Initiatives that you have identified already about a study 
regarding cost reduction, a study regarding disaster insurance for 
public infrastructure, and a study regarding declarations will no doubt 
identify additional areas for consideration.
    Thank you for the opportunity to speak to you today, and we look 
forward to continuing to work with you in the future.
                               __________
Statement of Dan Summers, Director, Department of Emergency Management, 
                         New Hanover County, NC
    Thank you Mr. Chairman and members of the committee. It is indeed 
an honor to be with you today. I compliment you on the desire to learn 
more from local government regarding possible amendments to the 
Stafford Act.
    I bring to this discussion 15 years service as one community's 
Emergency Manager having participated in four Presidential Disaster 
Declarations.
    In North Carolina nearly all one hundred counties have experienced 
disasters in the past decade. The issue of disaster response is no 
longer the other communities problem. I can attest that most all local 
governments now have a greater appreciation for a sound emergency 
management response program. However it is my belief that while 
disaster response plans are improving, only a small number of 
communities are sensitive to the rising disaster cost and the potential 
for cost reduction under the concept of mitigation.
    This Committee, along with some local governments and Federal 
agencies are equally concerned about the cost of disaster recovery. 
However, before you hasten to suggest budget cuts or tighter 
restrictions, understand that every disaster response is community 
specific. Needs vary, and individual pain and suffering is far greater 
than the typical 15 second sound bite seen on the evening news.
    I have witnessed Federal participation in disasters in the 1980's 
and I have been a part of the Federal response effort during events of 
the 90's. Allow me to compliment FEMA and many of its Federal partners 
on dramatic improvements in customer service. While dramatic 
improvements have occurred and communities are better served, there 
still exists opportunities to reach new levels in disaster response and 
mitigation.
    The efforts of FEMA's Project Impact is the new cornerstone of 
local recovery and mitigation initiatives. My community--New Hanover 
County North Carolina is one of the seven pilot communities involved in 
this worthwhile program. With FEMA's program support, we have a local 
community-driven task force. Our task force, titled the Partnership for 
Disaster Mitigation and Recovery has generated strong community 
interest. Let me illustrate some of our successes. In partnership with 
Lowe's Home Improvement Warehouse, we have conducted Hurricane 
Preparedness Expos. This event allows hundreds of visitors and 
customers to learn more on topics ranging from simple preparedness 
reminders to the latest techniques in strengthening roof and wall 
systems.
    Barnes and Nobles Bookseller contributed a full month of community 
service programming to hurricane awareness and single family home 
mitigation techniques. Most notably has been the highly acclaimed 
sessions for children who have learned preparedness and drawn pictures 
of elevating their homes illustrating their understanding of disaster 
mitigation techniques.
    Just one of our planned construction projects is a combined FEMA 
and local effort. Combining funding sources we are designing new school 
roof systems to not only reduce the cost of damages during the next 
hurricane, but improving the building's safety as an evacuation 
shelter. A key part of this activity will include training local 
engineers, building code officials and architects on the latest wind 
resistant techniques for incorporation into future school construction 
projects.
    For the record, a summary of our community activity and work 
projects has been submitted.
    The Partnership is continuing to work on dozens of ways to minimize 
the financial impact of our next hurricane event. Project Impact has 
allowed local communities to best define their needs as opposed to 
following a manual generalized for the entire country.
    If you analyze the disaster recovery process, the majority of the 
response activity is a local effort. Assistance typically is needed 
during recovery and restoration. Restoration and recovery efforts, 
especially for infrastructure items such as public buildings, schools, 
roads, and basic housing, are extremely difficult to manage following 
any disaster for any level of government.
    If a community takes steps to reduce the effects of future 
disasters especially areas experiencing repetitive events--it is simple 
to understand that the pressures for local government will be reduced. 
Surprisingly, most of our disaster outcomes are no longer unknowns. 
Mitigation dollars in partnership with local communities will be our 
roadmap to reduction in Federal disaster dollars.
    One analogy of supporting funding for predisaster mitigation might 
correlate with the concept of a vaccine. If the government supports the 
cost of vaccinations' the cost to the community is reduced by not 
having to combat that particular disease. Furthermore, the education 
and awareness efforts associated with vaccination programs contributes 
to our overall community wellness and improved standard of living.
    Project Impact and predisaster mitigation funding opportunities for 
communities can work much like a vaccine. If FEMA helps the community 
develop a team approach to building disaster resistant communities and 
injects funds for local demonstration mitigation projects, the 
community then has the opportunity to map its own mitigation successes.
    Recently, one of our local elected officials put Project Impact in 
this perspective. Look at what our nation has accomplished supporting 
concepts of recycling and the use of seatbelts. In these programs we 
have invested in public education, research and demonstration grant 
funding. By supporting predisaster mitigation funding opportunities 
with closely aligned Federal and community partnerships, a national 
disaster mitigation ethic will begin to emerge. This ethic or change in 
the way we handle disasters is the best way we know to begin the 
process of reducing disaster cost.
    In closing, I cannot begin to tell you the excitement and 
dedication my community has developed regarding Project Impact and the 
common sense approach to predisaster mitigation. My community, 
especially large and small businesses, feels that this is ``government 
at its best'' because the activities and programs are flexible and 
community-based. Be patient, we all know that new predisaster 
mitigation strategies will take time to conceive, develop and implement 
on a state and local level. Your pre-and post-disaster mitigation 
funding support will in-time begin to show some very tangible results.
    I thank you for this opportunity, I hope that you will give strong 
consideration to opening the regulatory doors for FEMA, and allow a 
community-based disaster mitigation ethic to be born.
    Thank you, and may I answer any questions you may have?
                                 ______
                                 
                      Memorandum of Understanding
    Agreement is made this ninth day of December 1997, by these 
parties: the County of New Hanover, City of Wilmington, participating 
municipalities, the private sector, the State of North Carolina and its 
partners (referred to collectively as the ``State''), and the Federal 
Emergency Management Agency and its national-level partners (referred 
to collectively as ``FEMA'').
Recitals
    WHEREAS, the parties
    Will strive to create a sustainable community that is resistant to 
the human and economic costs of disasters; and
    Recognize increasing population growth and diversity, escalating 
disaster costs, increasing vulnerability, and increasing threats to 
voluntary insurance markets; and
    Recognize that vulnerable conditions exist among State, County, 
City, and participating municipalities' public and private buildings 
and facilities and the utility and transportation systems that serve 
them; and
    Recognize the need to improve communications among industry; 
government; and the community; and
    Understand that the consequences of natural and man-made hazard 
events--losses of lives and property--are unacceptable; and
    Understand the critical relationships among governments, nonprofit 
institutions, and the private sector; and
    Believe that measures can be taken to reduce future losses; that 
enacting these measures can be done best in partnerships among 
government agencies, private companies, voluntary and professional 
associations, colleges and universities, and community organizations; 
and
    Promote personal responsibility for disaster preparedness; 
Recognize the respective commitment of the parties to mitigation 
activities; and
    Agree that incentives, such as financial, are necessary; and
    Agree to continue to receive and encourage the input of other 
appropriate partners; and
    Understand that the State, County, City, and municipalities agree 
to participate in FEMA's ``Project Impact'' initiative and National 
Mitigation Strategy; and
    Understand that the State, County, City, and municipalities agree 
to participate in North Carolina's Mitigation Planning Initiative; and
    Understand that the State, County, City, and participating 
municipalities agree to participate in the Federal Governments National 
Mitigation Strategy; and
    Believe that loss-reduction efforts undertaken before the onset of 
natural or man-made hazards events are the foundation of emergency 
management and are in the interest of public safety and economic 
security; and
    Desire to reduce losses because of their effect on the citizens of 
the United States and their cost to Federal, State, and local 
governments; and
    Wish to engender a new attitude among communities that embraces 
policies and projects that avoid, to the extent possible, creating new 
risks due to natural or man-made hazards, and to lessen the risk 
associated with existing buildings, facilities, utilities, and 
transportation systems; and
    WHEREAS, the parties believe they have a strong and abiding mutual 
interest to reduce losses from future disasters;
    NOW, THEREFORE, it is mutually agreed that the parties voluntarily 
enter into this non-binding Agreement to establish the New Hanover 
County Partnership for Disaster Mitigation and Recovery (the 
Partnership). Membership in the partnership is open and can be expanded 
to include new (additional) partners in the future. The partnership 
will work together, and with other interested entities to further 
mutual loss-reduction goals subject to the terms and conditions recited 
below.
1. Term
    The respective duties, responsibilities and commitments of the 
parties hereto Shall commence on the date this Agreement is signed by 
the parties and may be periodically renewed or revised at the option of 
the parties.
2. Consultations
    The Partners, in coordination with other public-sector entities and 
related community-wide initiatives, shall consult with each other on:
    <bullet>  identification and delineation of natural or man-made 
hazards within the County, City, and participating municipalities;
    <bullet>  assessment of risk and vulnerability of buildings, 
facilities, utilities, communications and transportation systems in the 
public and private sectors;
    <bullet>  techniques to plan for, reduce, and manage expected 
losses; and
    <bullet>  technical and financial assistance and incentives to 
facilitate loss-reduction projects.
3. Annual Evaluation
    The parties shall annually review the partnership created by this 
Agreement to determine and document the improvements accomplished. The 
Partnership will prepare an annual report describing accomplishments 
and making recommendations for improving this Agreement, FEMA's Project 
Impact, and other disaster mitigation/recovery strategies.
4. Resource Commitment
    The patties will consider committing human, technical, and 
financial resources, coordinate with current and future partners, and 
carry out the fundamental actions of this voluntary, non-binding 
Agreement.
5. The Disaster-Resistant Communities (Project Impact) Action Plan
    This Project Impact Agreement lists commitments made by the parties 
to be included as part of the Project Impact Action Plan. Appendix A 
reports these commitments, which will be acted upon after execution of 
this agreement. These actions will constitute steps toward 
accomplishing the loss-reduction goal. The period of time for 
completing defined actions will be set and reported by the partnership.
    The principal objective of this initiative is to further develop 
private, volunteer, and public-sector capabilities people, policies, 
resources, long-term plans, schedule for accomplishments, and 
establishment of working relationships--needed to carry out projects to 
reduce vulnerability to risk and minimize losses.
    IN WITNESS WHEREOF, each party has caused this Agreement to be 
executed by its duly authorized representatives on the date first 
mentioned above.
                                 ______
                                 
                      appendix a: proposed actions
    Initial actions the partnership agreed to take include the 
formation of a local government-sanctioned, broadly representative 
Steering Committee to coordinate partnership activities and perform 
other functions.
    Additional actions to be discussed are listed below by functional 
elements of the agreed-upon partnership organization. The partnership 
will refine this list and add timeframes for completion.
Steering Committee
    <bullet>  Develop standard operating procedures, in which protocols 
are established for mitigation and recovery efforts (what can be done, 
when).
    <bullet>  Ensure consistency among other community plans that 
facilitate efficient recovery and promote predisaster mitigation.
    <bullet>  Adapt the Emergency Operations Center to enable its use 
for private-sector and mitigation planning, and private-/public-sector 
involvement and coordination.
    <bullet>  Develop and implement a comprehensive mitigation plan 
and/or a business recovery/mitigation plan.
    <bullet>  Encourage the State to conduct a capabilities assessment.
    <bullet>  Establish a speakers' bureau that promotes mitigation, 
mitigation education, and the development of mitigation-related 
alliances among business, industry, the community, and the public 
sector.
    <bullet>  Develop a community-wide plan for obtaining and managing 
pre-designated emergency resources.
    <bullet>  Identify community-wide initiatives that are similar/
relevant to Project Impact; seek to coordinate and facilitate 
activities that relate to Project Impact and the overall disaster-
resistant community concept.
    <bullet>  Seek ways to incorporate the goals and objectives of 
Project Impact and the overall disaster-resistant community concept 
into the public-sector decisionmaking process.
    <bullet>  Develop a Project Impact marketing plan.
    <bullet>  Seek confirmation of commitment for a mentoring program.
Project Staff
    (An HMGP grant is being sought to enable hiring a project staff).
    <bullet>  Conduct a comprehensive capability assessment in New 
Hanover County (also see bullet 5 under ``Steering Committee'').
    <bullet>  Identify and solicit participation in the Project Impact 
Partnership from entities that could benefit from participation or 
whose partnership is desirable for any other reason.
    <bullet>  Survey key players to identify mitigation activities 
planned, underway, or to which the institution will commit.
    <bullet>  Coordinate (with FEMA) a mitigation and recovery exercise 
for the community
Risk Assessment
    <bullet>  Conduct a residential/business risk/vulnerability 
assessment.
    <bullet>  Conduct an infrastructure risk/vulnerability assessment, 
e.g., water, sewer, power, infrastructure).
    <bullet>  Inventory the tools and resources available (e.g., 
engineering, architectural groups).
    <bullet>  Identify critical facilities and assess their 
vulnerability to disasters.
    <bullet>  Evaluate/assess storm water facilities.
    <bullet>  Conduct architectural evaluations for resistance to wind 
and water damage.
    <bullet>  Assess the vulnerability of a critical facility in the 
community (committed by FEMA).
    <bullet>  Assess vulnerabilities to environmentally sensitive 
areas/recovery efforts.
    <bullet>  Participate in Department of Transportation vulnerability 
assessment.
    <bullet>  Assess the Community Rating System's present and future 
impact on the subject area.
    > Implement FEMA's agreement to provide training for community 
teachers.
    > Disseminate information about the characteristics of disasters 
and warnings.
    > Increase general knowledge of recovery activities.
    > Educate the public about protective actions (e.g., beach 
closings).
    > Educate the public about evacuation decisionmaking.
Public Information
    <bullet>  Develop a long-term, ongoing, public education program in 
mitigation.
    > Define ``mitigation'' and ensure understanding.
    > Compile mitigation case studies, disseminate.
    > Include a component to educate school students.
    <bullet>  Develop and implement mitigation demonstration projects, 
mitigation marketing plan.
    <bullet>  Disseminate the emergency management plan more widely to 
users.
    <bullet>  Conduct a cooperative education program for business/
government (in particular, to transmit information about governmental 
recovery actions).
    <bullet>  Pre-plan for local permitting
Mitigation Planning
    <bullet>  Develop an emergency workers support plan (for lodging, 
feeding, and providing other support services).
    <bullet>  Continue incorporating mitigation concepts and strategies 
into the partnership area's overall land-use planning and development 
strategies, policies and regulations (including, but not limited to, 
comprehensive plans, floodplain and environmental management efforts, 
zoning ordinances, economic development plans, public facilities/
capital improvement plans, subdivision plans).
    <bullet>  Develop and implement a comprehensive mitigation plan.
    <bullet>  Develop and implement a comprehensive mitigation/
awareness education program.
    <bullet>  Develop and implement a community-wide hazard risk/
vulnerability assessment program.
    <bullet>  Coordinate the partnership's effort with related 
initiatives to develop an effective and efficient plan for linking 
organizations involved in mitigation and recovery.
    <bullet>  Implement (private-sector) plan to pre-designate staging 
areas and responsibility for essential goods.
    <bullet>  Develop and implement a mentoring program that would help 
businesses and industries create hazard mitigation and preparedness 
plans.
    <bullet>  Identify and pre-plan to ensure quick availability of 
local resources, emergency access, other response services after a 
disaster.
    <bullet>  Pre-arranged agreements with other jurisdictions.
    <bullet>  Add mitigation elements to land-use plans Relocate 
vulnerable public facilities.
    <bullet>  Pre-plan for delivery of health services.
Financial Management
    <bullet>  Identify incentives and support their use to expand 
mitigation efforts.
    <bullet>  Articulate the economic value of mitigating resources.
                                 ______
                                 
                               appendix b
              financial and technical resource commitments
                   u.s. department of transportation
    Analyze vulnerability to the project area's transportation 
infrastructure.
Federal Emergency Management Agency
    FEMA is committed to provide the following direct assistance to 
support implementation of the Memorandum of Agreement:
    1. A grant of no less than $400,000 to retrofit a critical 
community facility;
    2. Field deployment of FEMA's mitigation recovery exercise workshop 
to New Hanover County;
    3. Support, through training and technical assistance, the 
Partnership's mitigation education effort;
    4. Funding to conduct an engineering evaluation and feasibility 
study for the retrofit of a community critical facility; and
    5. Technical assistance on the HAZUS loss-estimation model to 
develop a baseline for the hazard identification and risk-assessment 
portion of the New Hanover County local mitigation strategy.
National Oceanic and Atmospheric Administration
    NOAA's Coastal Services Center will commit planning, technical, 
and/or training resources associated with conducting a hazard risk and 
vulnerability assessment in Project Impact. The New Hanover County/
Wilmington Project Impact area will be one of NOAA's national pilot 
projects using the latest technologies to develop relevant hazards-
related, local planning and mitigation decision-support tools.
State of North Carolina
    <bullet>  Provide funding of the County's $200,000 Hazard 
Mitigation Grant Program (HMGP) DRC planning proposal.
    <bullet>  Provide teacher-training workshops on natural hazards--
identification and mitigation--based on the grades K-6 & 7-12 
Earthquake Curriculum.
    <bullet>  Present educational lectures to school children on 
natural hazards and the mitigation of those hazards (earthquake, 
hurricane, and flooding).
    <bullet>  Provide training to local building officials and 
inspectors on the seismic, wind and flooding provisions of the North 
Carolina State Building Code.
    <bullet>  Use NHC/W as a model community/county in the statewide 
mitigation planning initiative to demonstrate private/public 
partnerships.
    <bullet>  Provide $25,000 funding match to money from the private 
sector for the establishment of a mitigation/recovery and policy/
planning organization in the business community based on the Disaster 
Recovery Business AllianceSM (DRBA) concept.
    <bullet>  Provide technical assistance and expertise in the form of 
State EM personnel to support the DRBA initiative.
    <bullet>  Provide training on disaster recovery coordination 
through exercises of the Recovery Function on a community-wide basis.
    <bullet>  Provide training at the local level on HAZUS, the 
geographic information system (GIS) loss estimation software-planning 
tool.
    <bullet>  Provide technical assistance in the form of State EM 
personnel in training and conducting a building inventory update and 
mitigation analysis for HAZUS.
    <bullet>  Provide training to local building officials, inspectors, 
and firefighters on the procedures to conduct post-disaster safety 
evaluation of buildings for structural hazards.
    <bullet>  Provide technical expertise in the form of State EM 
personnel on the evaluation of public critical facilities for 
structural and non-structural seismic vulnerabilities.
    <bullet>  Provide technical expertise in the form of State EM 
personnel for conducting as well as training on the techniques used to 
evaluate schools and day care centers on nonstructural earthquake 
hazard identification and mitigation.
                 new hanover county/city of wilmington
New Hanover County
    <bullet>  The New Hanover County Board of Commissioners' 
established a resolution agreeing to complete and fulfill all the 
obligations necessary to fully develop and implement a disaster-
resistant community concept and Project Impact (see Appendix C for 
resolution).
    <bullet>  New Hanover County will provide $162,400 of in-kind 
services to support a community-wide hazard mitigation planning 
initiative. This effort will include the development of public-private 
partnerships that wit seek to implement hazard mitigation and post-
disaster redevelopment planning.
    <bullet>  New Hanover County will explore the potential of formally 
incorporating an overall hazard mitigation focus, as well as hazard 
mitigation elements, into their planning, development, and land-use 
policies, regulations, and strategies.
    <bullet>  New Hanover County will evaluate its current floodplain 
management programs and regulations with the objective of improving the 
county's standing in the National Flood Insurance Program's Community 
Rating System (CRS).
    <bullet>  The New Hanover County Departments of Engineering and 
Building Inspections will continue to emphasize the hazard mitigation 
elements of its policies and regulations. Additionally, these 
departments will seek ways in which to incorporate additional 
mitigation elements into their engineering and inspection activities. 
These departments also will explore the idea of developing a summary of 
their present and future mitigation activities as they relate to 
building and development regulations, policies, and strategies.
    <bullet>  New Hanover County Department of Building Inspections 
will formally establish and develop its existing ``Program for Kids'' 
initiative, which emphasizes hazard mitigation and hazard preparedness 
to schoolchildren. This department also will assist the partnership 
with the development and implementation of a community-wide mitigation 
education program. Finally, the Department will assist the partnership 
with a community-wide hazard risk/vulnerability assessment.
    <bullet>  New Hanover County Department of Emergency Management:
    > installed at its own expense an 800 MHz bunked two-way radio 
communications network to mitigate against the breakdown of 
communications that frequently occurs when disaster strikes. Studies 
indicate that the inability to effectively communicate, especially 
between agencies, often compounds the disaster. The New Hanover 800 MHz 
network allows for better command and control and enables responders to 
communicate across jurisdictional and agency boundaries. This network 
capability was self-initiated and is managed by the county director of 
emergency management. This system, able to handle up to 200 different 
talk groups, provides an increased range of communication as well as 
allowing cross talk between various agencies.
    > instituted community outreach program of hazard awareness and 
information. This program involves manning information booths at public 
events, appearing at community industries and schools, and 
participating in local parades. New Hanover County was recognized for 
its efforts in this regard with the 1997 Lowes Public Education Award 
from the National Coordinating Council of Emergency Management (NCCEM).
    > conducts and supports local industry and public-sector disaster 
mitigation exercises and drills. Specifically, the county regularly 
participates in the training mandated by the Nuclear Regulatory Agency 
for power plants in the area, as well as in mass casualty drills 
required by the Federal Aviation Agency for the local airport 
authority. Studies show that such training is critical to the 
prevention of loss of life and property when disasters occur.
    > recruited, trained, and manages a cadre of some 15-20 emergency 
management volunteers under the auspices of the Director, Emergency 
Management, New Hanover County. The Response Emergency Management 
Organization (REMO) volunteers help support training exercises and 
drills, participate in county disaster awareness and information 
programs, staff the Emergency Operations Center when called upon, and 
generally support emergency management efforts in the county. REMO 
contributed in excess of 2,000 man-hours annually, saving the county 
some $40,000 per year in salary and personnel overhead for a full-time 
employee.
City of Wilmington
    <bullet>  Wilmington's City Council developed a resolution agreeing 
to complete and fulfill all the obligations necessary to fully develop 
and implement a disaster-resistant community concept and Project Impact 
(see Appendix C for resolution).
    <bullet>  The City of Wilmington will evaluate current floodplain 
management programs with the objective of qualifying the City for the 
National Flood Insurance Program's Community Rating System.
    <bullet>  The City of Wilmington will continue to evaluate 
stormwater management strategies that focus on controlling stormwater 
runoff, sediment control, and water quality, as well as overall flood/
hazard mitigation.
    <bullet>  The City of Wilmington will continue promoting the hazard 
mitigation focus that exists throughout the City's planning and land-
use regulations, policies, and strategies. The City also will consider 
hazard mitigation during any evaluation, amendment, and updating phases 
of these programs. Additionally, the City's comprehensive planning 
update exercises will consider hazard mitigation ideals, concepts, and 
strategies.
    <bullet>  The City of Wilmington will continue to evaluate hazard 
mitigation concepts when constructing/upgrading public facilities 
(public buildings, water treatment plants, sewage treatment plants, 
etc).
    <bullet>  The Greater Wilmington Chamber of Commerce will support 
the elected officials and professional staffs of the County and the 
City as they complete and fulfill all of the obligations necessary to 
develop and implement the disaster-resistant community concept and 
Project Impact (see Appendix C).
Business & Industry--New Hanover County/City of Wilmington
    <bullet>  General Electric (GE). During the emergencies created by 
hurricanes Bertha and Fran, GE provided its employees and their 
families with various programs to help them cope with these disasters, 
including mitigation training, emergency grants for losses not covered 
by insurance, and the Employee Assistance Program. In addition, GE 
supported a volunteer employee program that assisted members of the 
community in making repairs after the hurricanes. GE presently 
participates in several community and local business/industry programs 
in support of local emergency planning initiatives. GE is committed to 
participate in the Project Impact Partnership, and will work with the 
partnership in the development of its community programs.
    <bullet>  WGNI Radio plays an instrumental role as a communications 
clearinghouse for the New Hanover County/Wilmington area before, 
during, and after a disaster. The station has displayed its continued 
commitment to this public service by purchasing a generator that will 
allow the station to operate at full capacity under extreme conditions. 
In addition to continuing to provide communications, the station will 
help the Partnership develop a hazard mitigation/awareness education 
program.
    <bullet>  After Hurricane Fran, Motorola and Coastal Electronics 
provided the New Hanover Division of Emergency Management with 
personnel and over $500,000 in communication equipment and electronics, 
allowing the Division to efficiently operate after the storm. 
Motorola's Installation Audit Standards (R56) considers mitigation and 
hazard vulnerability factors during a system's installation. 
Additionally, Motorola's customer capability assessment keeps an 
inventory of each customer's equipment and needs. Both Motorola and 
Coastal Electronics will explore the possibility of sharing their 
``Installation'' and ``Capability Assessment (R56)'' programs with the 
partnership. Additionally, both companies will consider becoming 
involved in the Partnership's effort to develop a community-wide hazard 
risk/vulnerability assessment.
    <bullet>  Carolina Power and Light's (CP&L) employee assistance 
program helps employees and their families so the employees can get 
back to their jobs faster. This program provides a benefit to the 
company, its employees, CP&L customers, and the community. CP&L also 
developed a Regional Storm Plan, which is reviewed during annual 
training sessions. Additionally, CP&L performs regular and ongoing 
surveys of its region to identify and mitigate potential problems (weak 
trees, trees and limbs too close to lines, etc). Also, CP&L's ``New 
Roots'' program helps the community replace fallen trees with low 
growing varieties that will not fall on power lines, causing outages 
and other dangerous conditions. In addition to these initiatives, CP&L 
inserts damage prevention and hazard preparedness materials in their 
billing statements. With its strong focus on hurricane preparedness, 
preparation, and mitigation, CP&L likely will assist the partnership in 
its efforts to develop a hazard awareness/mitigation education program. 
Additionally, CP&L will explore the idea of helping the partnership 
perform a community-wide hazard vulnerability/risk assessment.
    <bullet>  The North Carolina State Ports Authority has developed 
and effective Hurricane Preparedness Plan which is reviewed and updated 
regularly. This plan is implemented prior to a disaster so that the 
facility is completely shut down and hurricane resistant 48 hours prior 
to a storm's landfall. This plan also includes community assistance 
components that help the, surrounding area with recovery efforts. The 
Ports Authority will consider sharing their plan with the community and 
will explore the possibility of becoming involved with the 
Partnership's development and implementation of a hazard mitigation/
awareness education program. Additionally, the Authority likely will 
share their community assistance experience with the partnership and 
advise the partnership during the development of a comprehensive 
community assistance program.
    <bullet>  Occidental Chemical Corporation has an employee 
assistance program in place that allows employees stay home to assist 
their families and others without impacting pay. Additionally, 
Occidental's severe weather shut down procedures provides for the 
safety and comfort of employees who volunteer to stay at the facility 
during a hurricane. Occidental also has established a ``Safety 
Saturday'' for employees, which, in addition to focusing on safety 
issues, covers hurricane preparation and mitigation topics. The company 
will consider participating in the development and implementation of a 
community-wide disaster/hurricane awareness week. Also, the company 
will consider assisting the partnership during the development and 
implementation of a community-wide mitigation awareness/education 
program.
    <bullet>  Hoechst Celanese has developed and implemented a 
hurricane preparedness plan that is regularly reviewed and updated as 
necessary. Hoechst Celanese has tentatively agreed to assist the 
partnership with the development an implementation of a hazard 
mitigation/awareness education program. The company also has agreed to 
consider assisting the partnership with their efforts to develop and 
implement a hazard risk/vulnerability assessment program. Finally, the 
company likely will help other area businesses and industries develop 
hurricane preparedness and mitigation plans.
    <bullet>  Lowes Stores has developed and instituted a Hurricane 
Prepardness/Awareness Exposition, an annual event that is held prior to 
hurricane season. This exposition (partially funded by the Lowes Home 
safety council) features displays and information that focus on hazard 
preparedness and mitigation issues. In addition to agreeing to continue 
hosting this annual event, Lowes will likely help the Partnership 
develop and implement a hazard mitigation/awareness education program. 
Additionally, Lowes will consider assisting helping the partnership 
during the development and implementation of a community hazard risk/
vulnerability assessment.
                                 ______
                                 
                               appendix c
                        partnership initiatives
             commitments to future partnership initiatives
Mitigation, Land Use Planning, and Development
    The following local government entities will strive to continue 
incorporating mitigation concepts and strategies into their overall 
land-use planning and development strategies, policies and regulations 
(including, but not limited to, comprehensive plans, floodplain and 
environmental management efforts, zoning ordinances, economic 
development plans, public facilities/capital improvement plans, 
subdivision plans):
                           new hanover county
                           city of wilmington
Hazard Mitigation and Awareness Education
    The following entities will seek to develop and implement a 
comprehensive hazard mitigation/awareness education program for the New 
Hanover/Wilmington area:
    Barnes and Noble
    Bell-South
    Carolina Power and Light
    City of Wilmington
    Coastal Electronics
    General Electric
    The Greater Wilmington Chamber of Commerce
    Hoechst Celanese
    Lowes Stores
    Motorola
    National Coordinating Council of Emergency Management
    New Hanover County Division of Emergency Management
    North Carolina State Ports Authority
    Occidental Chemical Corporation
    WGNI Radio
    Wilmington Industrial Development, Inc.
Hazard Risk/Vulnerability Assessment
    The following entities will consider assisting the Partnership with 
the development and implementation of a comprehensive hazard risk/
vulnerability assessment for the New Hanover/Wilmington Area:
    Barnes and Noble
    Bell-South
    Carolina Power and Light
    City of Wilmington
    Coastal Electronics
    General Electric
    The Greater Wilmington Chamber of Commerce
    Hoechst Celanese
    Lowes Stores
    Motorola
    North Carolina State Ports Authority
    Occidental Chemical Corporation
    WGNI Radio
    Wilmington Industrial Development, Inc.
Mentoring Program
    The following entities will seek to help the partnership develop 
and implement a ``mentoring'' program that will be designed to help 
area businesses and industries create their own hazard mitigation and 
preparedness plans:
    Bell-South
    Carolina Power and Light
    Coastal Electronics
    General Electric
    The Greater Wilmington Chamber of Commerce
    Hoechst Celanese
    Motorola
    North Carolina State Ports Authority
    Occidental Chemical Corporation
    Wilmington Industrial Development, Inc.
                                 ______
                                 
                               appendix d
                         supporting resolutions
    1. Resolution of the New Hanover County Board of Commissioners, 
adopted September 2, 1997
    2. Resolution of the City Council of Wilmington, North Carolina, 
adopted September 2, 1997
    3. Resolution of the Greater Wilmington Chamber of Commerce, 
adopted September 2, 1997
                                 ______
                                 
                               resolution
                       requesting fema designate
 new hanover county and the city of wilmington as a disaster-resistant 
                               community
    WHEREAS, New Hanover County, the City of Wilmington and the other 
municipalities of New Hanover County are prone to Atlantic Coast 
Hurricanes, and
    WHEREAS, New Hanover County and the municipalities therein received 
substantial damage form the Hurricanes named Bertha and Fran in the 
summer of 1996, and
    WHEREAS, our communities, have recovered from the storms and were 
successful examples of teamwork and preparation, and
    WHEREAS, New Hanover County and the City of Wilmington are under 
consideration for receipt of resources, grant funding and support from 
the Federal Emergency Management Agency for designation as a Disaster-
Resistant Community.
    NOW, THEREFORE, BE IT RESOLVED that the New Hanover County Board of 
Commissioners respectfully requests FEMA Director James Lee Witt to 
declare New Hanover County and the City of Wilmington as a Disaster-
Resistant Community and that associated resources, support, and funding 
be forthcoming from the research, development, and education of the 
community to fully warrant the declaration and title of Disaster-
Resistant Community.
    BE IT FURTHER RESOLVED that the elected officials and professional 
staffs of the County of New Hanover and the City of Wilmington be 
dedicated to completing and fulfilling all of the obligations necessary 
to fully develop and implement the Disaster-resistant community 
concept. On behalf of the citizens of New Hanover County and the New 
Hanover County Board of Commissioners, I, Robert G. Greer, am hereby 
authorized by the New Hanover County Board of Commissioners to submit 
this resolution to James Lee Witt, Director, Federal Emergency 
Management Agency.

    Adopted this second day of September 1997.
                                 Robert G. Greer, Chairman,
                        Board of Commissioners, New Hanover County.
                                 ______
                                 
 resolution of support for fema designation of the city of wilmington 
         and new hanover county as a disaster-resistant commit
Legislative Intent
    Wilmington and New Hanover County, located on the coast of the 
Atlantic Ocean, have experienced in the past and are susceptible in the 
future to hurricanes and other natural disasters. Various public and 
private efforts have been considered and, to some extent, implemented 
to better prepare for the hazards of hurricanes.
    Currently, the City and County are being considered by the Federal 
Emergency Management Agency (FEMA) for designation and receipt of grant 
funding and support to become a pilot disaster-resistant community. 
This initiative is an opportunity to improve and expand the existing 
public/private partnerships, to develop predisaster mitigation 
strategies, and to educate our community on pre-hazard preparation.
    The State's Division of Emergency Management is in full support of 
this effort and its officials have participated in recent conference 
calls and meetings with FEMA, City, County and private sector 
representatives.
Resolved
    That the Wilmington City Council does hereby endorse and request 
the designation by FEMA Director James Lee Witt of the City of 
Wilmington and New Hanover County as a disaster-resistant community, 
with the associated resources, funding and support to be provided for 
the research, development, and implementation of strategies to mitigate 
the hazards of hurricanes and other natural disasters.

    Adopted at a regular meeting on September 2, 1997
                                           Don Betz, Mayor.
                                 ______
                                 
                 greater wilmington chamber of commerce
                               resolution
requesting fema designate new hanover county and the city of wilmington 
                   as a disaster-resistant community
    WHEREAS, New Hanover County, The City of Wilmington and the other 
municipalities of New Hanover County are prone to Atlantic Coast 
Hurricanes, and
    WHEREAS, New Hanover County and the municipalities therein received 
substantial damage form the Hurricanes named Bertha and Fran in the 
summer of 1996, and
    WHEREAS, our communities, have recovered from the storms and were 
successful examples of teamwork and preparation, and
    WHEREAS, New Hanover County and the City of Wilmington are under 
consideration for receipt of resources, grant funding and support from 
the Federal Emergency Management Agency for designation as a disaster-
resistant community.
    NOW, THEREFORE, BE IT RESOLVED that the Greater Wilmington Chamber 
of Commerce respectfully requests FEMA Director James Lee Witt declare 
New Hanover County and the City of Wilmington as a disaster-resistant 
community and that associated resources, support and funding be 
forthcoming from the research, development and education of the 
community to Filly warrant the declaration and title of disaster-
resistant community.
    BE IT FURTHER RESOLVED that the Chamber will support the elected 
officials and professional staffs of the County of New Hanover and the 
City of Wilmington as they complete and fulfill all of the obligations 
necessary to fully develop and implement the disaster-resistant 
community concept. On behalf of the members of the Greater Wilmington 
Chamber of Commerce, I, Thomas L. Dodson, am hereby authorized by the 
Board of Directors of the Greater Wilmington Chamber of Commerce to 
submit this resolution to James Lee Witt, Director, Federal Emergency 
Management Agency.

    Adopted this second day of September 1997.
                                Thomas L. Dodson, Chairman,
                                  Connie Majure, President.
                               __________
                           new hanover county
    partnership for disaster mitigation & recovery (project impact)
                            activity report
Projects/Events Underway
    New Hanover County/Wilmington Project Impact ``Public Attitudes & 
Preparedness Study'': This is a comprehensive effort to inventory local 
residents' hurricane related perceptions and predisaster mitigation 
behavior. A random sample of community residents will be interviewed 
over the telephone about their experience with past hurricanes, their 
preparations for future hurricanes and a wide variety of other 
hurricane related perceptions. The Study objectives are to: (1) assess 
local residents' level of experience with past hurricanes; (2) measure 
perceptions toward the threat of possible hurricanes; (3) identify 
predisaster mitigation strategies being used by local residents; (4) 
establish knowledge of Project Impact activities; and (5) examine the 
links between the threat of hurricanes, preparation and mitigation 
behavior. The study will be conducted by the Survey Research Laboratory 
at the University of North Carolina-Wilmington. The project results 
will be made available to the public in the forte of an Executive 
Summary presented to the New Hanover County Department of Emergency 
Management on October 15, 1998.
    School Retrofit Project: School representatives and Emergency 
Management officials interviewed several engineering consulting firms 
for technical services in evaluating New Hanover County Schools and 
additional shelters. They are in the process of reviewing proposal, and 
anticipate that an engineering consultant will be contracted in August. 
The project will be looking at designing new school roof systems to not 
only reduce the cost of damages during the next hurricane, but improve 
building safety as an evacuation shelter. Two key parts of this 
activity will include school building evaluations, and training local 
engineers, building code officials and architects on the latest wind 
resistant techniques for incorporation into future school construction 
projects.
    New Hanover County ``Storm Surge Inundation Map'': A map is under 
construction with public/private partner contributors. Estimated 
completion date is September 1998. This map will be distributed free to 
the public. The theme is ``Know Your Risk''.
    Risk & Vulnerability Assessment: The National Oceanic and 
Atmospheric Administration (NOAA) Coastal Services Center (CSC) is 
partnering with FEMA in Wilmington/New Hanover County as a Project 
Impact initiative. CSC is working closely with New Hanover County and 
State agency staffs in the development of a risk and vulnerability 
assessment for the county to support the Project Impact initiative. The 
project team is utilizing geographic information system (GIS) and other 
spatial data technologies to conduct a thorough analysis of natural 
hazard risk and vulnerability in the county, focusing on the barrier 
islands and near shore areas. In collaboration with New Hanover County 
Emergency Management, GIS, and Planning staffs, CSC is developing a GIS 
application based on data maintained within the county's mapping system 
for use in planning prior to coastal hazard events or to assist in 
post-storm damage assessment. CSC is also supporting the Project Impact 
initiative through a cooperative agreement grant to the North Carolina 
Division of Coastal Management (NC DCM).
    Sewer Manhole Inflow Guard Project: The County has approximately 
5,000 manholes in it's sewer system. Some of these manholes 
(approximately 1,000) are located in the roads, while most 
(approximately 4,000) are along road shoulders or other low lying areas 
of the County. This project is installing stainless steel sewer guards 
(these would hold up under traffic vibrations better than plastic) in 
the manholes located in the roads and plastic sewer guards in all other 
manholes to prevent flood waters and stormwater runoff from entering 
the manholes around the covers, thus preventing sewer spills caused by 
excessive inflow.
    Raising Elevation of Electrical Pump Equipment: In order to prevent 
environmental and equipment damage from occurring in future flood 
events, the county is raising the elevation of electrical equipment at 
three sewer pump stations. These three pump stations suffered from 
sewer damage from flooding problems during recent storms.
    New Hanover County will be sending 12 representatives to the 
Emergency Management Institute in Emmitsburg, Maryland for the IEMC: 
Hurricane Recovery & Mitigation Course in August 1998.
    County Plans: New Hanover County Emergency Operations Plan is in 
the process of being updated, and the County ``Hazard Mitigation and 
Recovery Plan'' is under construction.
    New Hanover County Emergency Management Web Page under 
construction.
    The Senior Center is in the process of developing an Aging Data 
base for the purpose of seniors checking on and assisting other seniors 
when an emergency event notification is made.
    City of Wilmington is in the process of constructing a ``new'' 
disaster resistant building for the City Fire Headquarters and the City 
Emergency Operations Center.
    City of Wilmington is in the process of upgrading City sewer 
service for low income areas.
    City of Wilmington to implement 800 mhz radio communications system 
(Fire in May 1998, and Police in August 1998.)
July 1998 Activities
    New Hanover County developed a Emergency Checklist ``Mini Plan''. 
This checklist mini-plan is designed to be a supplement to the 
Emergency Operations Plan for easy access and reference information.
    Steering Committees are scheduled to begin meeting this month to 
establish mitigation strategies and goals:
    July 14-- First meeting of the Mitigation Planning Steering 
Committee
    July 15--First meeting of the Risk Assessment/Hazard Identification 
Steering Committee
    July 21--First meeting of the Public Information/Human Services 
Steering Committee
    July 30--First meeting of the Financial & Economic Issues Steering 
Committee
    Disaster preparedness and hurricane awareness and education 
programs continue throughout the county.
June 1998 Activities
    Partnership Committee for Disaster Mitigation and Recovery: At the 
June 18 meeting, the Partnership Committee introduced an organizational 
structure with four Steering Committees. The Steering Committees will 
begin meeting on a monthly basis in July to establish mitigation 
strategies, planning process and goals. The Four Steering Committees 
are:
    Mitigation Planning Steering Committee
    Risk Assessment/Hazard Identification Steering Committee
    Public Information/Human Services Steering Committee
    Financial & Economic Issues Steering Committee
    (These ``working groups'' will report to the Partnership Committee 
at each quarterly meeting. They will report on all their activities, 
progress and projects.)
    Enhanced Community Hurricane Preparedness & Education utilizing 
large and small business/industry, and the media. Supplied many 
employers with material for distribution to their employees on disaster 
preparedness.
    Mark Sudduth, Hurricane Maps Enterprises, has produced a new 1998 
full-color Hurricane Awareness Tracking Map. As a result of the Project 
Impact initiative, the map has been expanded this year to include 
additional information and mitigation topics such as: hurricane basics/
preparedness, tools of trade, tides/moon phases, evacuation, food & 
water, mitigation (Project Impact), sand dunes, NFIP, elevating/moving 
home, hurricane shutters, tree damage, etc. The maps were available in 
the beginning of June at various locations including: Harris Teeter, 
Lowe's and S&E Food Marts. The maps were also distributed at various 
hurricane awareness events, to all employees of sponsors and by the 
local Emergency Management Department. Media promotion of these maps 
were provided by the following radio stations: WAAV, Star 105.5, Q92, 
Kiss 94.1 and WWQQ 101.3. Map sponsors are the following: Hale 
Construction, M&N Equipment Rental, New Hanover Regional Medical 
Center, CP&L, BellSouth, Springer Eubank Oil Company, Harris Teeter, 
Gregory Poole, Lowe's of Wilmington, Edwards Crane Company, Home Base 
Rollaway, State Ports of Wilmington, NC Bar Association, Coastal 
Electronics, James Moore Insurance Agency and Corps of Engineers.
    Lowe's Hurricane Preparedness Expo, Saturday, June 6. There were 
static displays as well as hands-on demonstrations and displays. WECT, 
Channel 6, was the media sponsor for this event. Participants included 
local Emergency Management, FEMA, NOAA, American Red Cross and about 40 
other vendors. Seminars and displays included the following: how to 
build and install hurricane shutters; generator operation and safety; 
emergency food preparation and safety; survival kit preparation; 
preparing a family disaster plan; post-storm accident prevention; 
county disaster assistance vehicles & equipment; county storm surge 
probability maps; evacuation route & hurricane shelter information; 
survival kit supplies; generators; hurricane strutters; home safety 
products;and hurricane forecasting & tracking. Services that were 
provided are: plywood for hurricane shutters cut to order free, and 
free chain saw blade sharpening. Lowe's of Wilmington has an on-going 
disaster preparedness display in the front of their store.
    Barnes & Noble--''Hurricane Preparedness'' month at the store. The 
following events were held:
    June 4--from 7 am to 9 pm.--Weather--Be Prepared on Land & Sea. 
Guests: David Thomas, FEMA--Region IV; Lt. Tony Varamo, USCG; Thomas 
Shaw, USCG; Tom Matheson, NWS; Mark Sudduth, Hurricane Map Designer; 
and weather personalities from WECT & WWAY. New hurricane tracking maps 
will be available. Learn from the experts--how to be safe on land & 
sea.
    June 11--from 7 am to 9 pm.--Protect Your Home & Garden. The guests 
included: Captain Charles Calhoun: The Hurricanes Are Coming--how to 
retro fit your home; Mark Markley, Construction Consultant & Radio Home 
Improvement Talk-Show Host; Jane Hardwick, Owner of Wilmington Awning--
hurricane shutters; Brian Edgar, Store Manager of Home Depot--chainsaw 
and generator safety; Mary Anne Medcalf, Urban Forrester from the New 
Hanover County Arboretum; and Durant Vick, President of Crisis 
Management Worldwide--insurance.
    June 18--from 7 am to 9 pm.--Staying Healthy. Experts discussed 
things to be done to protect your family's health and your pet's safety 
before and after a hurricane. Guest speakers include: Ida Burgin, New 
Hanover Home Extension--food & safety preparation; Annie Pixley, Cape 
Fear Chapter American Red Cross--training courses in disaster 
preparedness; Ben Brow, Special Needs; Donna Booth-Neal, Animal 
Advisory Control Board--pet safety & preparedness; and Dan Summers, New 
Hanover County Emergency Management Director--hurricane preparedness 
and recovery.
    June 25--from 7 am to 9 pm.--NC Hurricane History. NC Hurricane 
History has been revised to include Hurricane Bertha and Hurricane 
Fran. Jay Barnes, the Author, was present to discuss our past hurricane 
history and give some insights into the future.
Saturday Storytimes (at 11 a.m.)
    June 6--David Wiesner read hurricane related stories to children at 
Lowe's Day.
    June 13--Special storytime--Hurricane City (Project Impact and why 
it is important.)
    June 20--Stormy Weather by Molly Wigand.
    June 27--Twisters by Lucille Penner.
    The first New Hanover County Joint Information Media Center 
Exercise was held on June 16. This was an actual hurricane drill using 
participants to call in as citizens with support and information needs. 
There were eighty six (86) participants, and in 6 hours the Media 
Center put out sixty three (63) press releases to correct 
misinformation and rumor control, to be given to the public has been 
computerized by the County's Information Technology Department for 
quick and accurate information dissemination. The exercise critique 
showed positive overall support for the project and system, with only 
minor adjustments and system corrections to be made.
    Media Presentations on hurricane awareness and safety tips. A week-
long series was prepared and aired by Channel 3 TV. This series 
included hurricane preparedness, retrofitting your home, generator 
safety, family disaster preparedness planning and Project Impact. 
Channel 6 has also aired several hurricane awareness segments relating 
to family disaster preparedness planning and Project Impact. Several 
local radio stations have been regularly airing hurricane preparedness 
tips. Channel 6 is the media sponsor for the Lowe's Hurricane Expo on 
June 6.
    The Town of Carolina Beach has completed a final draft of their 
``Hazard Mitigation Plan''.
    New Hanover County Emergency Management Director Dan Summers 
addressed Congressional Staff on Capitol Hill on June 3 regarding New 
Hanover County's experiences as a Project Impact community, and future 
expectations as the County moves forward with becoming more disaster 
resistant.
    A State Hurricane/Informational Exercise was held on June 2. The 
first part describe how the state Logistical Operation Support Areas 
(LOSA) will be set-up and the process before, during & after an event. 
The second part consisted of a tabletop exercise focusing on pre-
landfall activities as they relate to dissemination of information, 
protective action decisionmaking, and LOSA's.
May 1998 Activities
    Occidental Chemical Corporation held ``Safety Saturday'' on 
Saturday, May 30 at the plant site off Holly Shelter Road in Castle 
Hayne. Participants included: Lowe's, Honest Injun, Castle Hayne Fire 
Department, New Hanover County Emergency Management, U.S. Coast Guard 
Auxiliary, New Hanover County Sheriffs Department, Cape Fear River 
Watch, FEMA, Carolina Power & Light, American Red Cross, and NC 
Forestry Service. There were hands-on displays, safety presentations 
and the Fire Department's ``Smokehouse'' was on display for children's 
fire safety tours.
    New Hanover County Emergency Management held a Hurricane Table Top 
Exercise for the Town of Carolina Beach, in the Emergency Operations 
Center on May 19 from 9 a.m. to 3 p.m.
    The MACC--''Multi-Agency Communications Coordination'' Vehicle has 
been established to enhance communications in the County. This vehicle 
is assigned to the Department of Emergency Management.
    Wilmington Regional Association of Realtors, Inc.--hosted a seminar 
``Insuring Against Natural Disasters in Coastal North Carolina--Nuts & 
Bolts for Realtors''. The program was held on Wednesday, May 13 at UNC-
Wilmington's University Center. The program included: History & 
Background of the National Flood Insurance Program (Roger G. 
Widdifield, Regional Manager NFIP); Where You Live Matters--A City/
County Overview (Dexter Hayes, NHC Planning Director); Review of Flood 
Insurance Policy Coverages (Roger G. Widdifield, Regional Manager 
NFIP); Insuring Coastal Properties (Dascheil Propes, Chief Deputy 
Commissioner of Insurance-NCDOI); Mortgage Lender Responsibility & 
Notification Procedures(Lena Thompson, Federal Insurance Administration 
); Status of Disaster Insurance in NC (Dascheil Propes, NCDOI); and the 
Status of Federal Natural Disaster Insurance (Mary Ellen Stevens, 
Constituent Service Representative, The Office of the Honorable Mike 
McIntyre/U.S. House of Representatives). This program was well 
attended, and apparently the first of its kind in the nation.
    BellSouth's Business Continuity Services for Disaster Planning, 
Wednesday, May 13 at the Wilmington Hilton. BellSouth hosted this 
meeting for its largest business customers regarding Disaster Planning. 
One of the agenda items included Dan Summers, Director of New Hanover 
County Emergency Management regarding hurricane preparedness and 
Project Impact. BellSouth hosted this seminar so their customers will 
start thinking about developing their own business continuity plan as a 
preventive measure in case of an emergency, not just reacting after a 
disaster. Joining the seminar was one of BellSouth's largest vendors of 
disaster recovery solutions--ComDisco. This type of meeting will be 
held in nine (9) other Bell South States.
    The New Hanover County Department of Emergency Management hosted a 
Public Officials Conference at the Town of Carolina Beach on May 11.
    The Wilmington-New Hanover County Comprehensive Plan Subcommittee 
met on Saturday, May 2. The Comprehensive Plan also includes the 
Coastal Area Management Act (CAMA) Land Use Plan Update and important 
input into the Wilmington Urban Area Transportation Plan Update. The 
Steering Committee & the Subcommittee will meet monthly. A Joint Work 
Session will be held in early September, and a draft Plan will be 
submitted to the State for initial review around September 30. Public 
Hearings on the Comprehensive Plan (& CAMA Land Use Plan Update) will 
be in early 1999. County Contact is Patrick Lowe at 341-7165 & the City 
Contact is Mark Zeigler at341-5811.
    The City of Wilmington made improvements to its Sweeney Water 
Plant, including 100 percent operational by generator.
    The ``new'' Storm Water Plan for the City of Wilmington was 
approved.
    The City of Wilmington installed generators in many City facilities 
and the fire stations.
April 1998 Activities
    Project Impact Kickoff Meeting: First meeting of the Partnership 
Committee for Disaster Mitigation and Recovery (Project Impact) was 
held on April 29 at the Cape Fear Museum in Wilmington.
    New Hanover County Emergency Management installed and tested NOAA 
Weather Radios in all County Schools.
    New Hanover County Fire Station #5 had its Open House on April 29. 
Hoechst Celanese donated the building and land for this County Fire 
Station. This fire department is a combination of paid full-time, paid 
part-time and volunteers. An award was given to Hoechst Celanese at 
this Open House for their corporate contribution in this public & 
private partnership.
    National Hurricane Conference: At the National Hurricane Conference 
in Norfolk, Virginia on April 8, Allen O'Neal, County Manager gave a 
presentation on local hurricane mitigation and the view from a disaster 
resistant community.
March 1998 Activities
    IC-3 Drill (Special Needs Task Force Drill--March 9): In early 
1998, a Task Force made up of public and private sectors was developed 
to discuss special needs and the rising number of retired persons 
moving to this area. The Task Force was developed with 22 participating 
agencies forming an alliance to take special need individuals from high 
risk areas to an area where their needs can be continued. A separate 
EOC has been established called the IC-3 (Individual Care Coordination 
Center) which is located in the Area Health Education Center (AHEC). 
Agencies have agreed to staff the IC-3 in emergencies, and a successful 
table top was held with these agencies in the IC-3 on March 9. A draft 
Plan has been developed with triage actions for special needs 
individuals. The Task Force is still reviewing liability issues and 
working with nursing and rest homes to provide temporary housing. The 
Task Force will have a critique of this table top exercise in May.
    ``Spring Break 98'' was held on March 28. Spring Break is part of 
Project Impact, a national effort that shifts the focus of emergency 
management from responding to disasters to initiating action to reduce 
potential losses prior to disasters. The volunteers for Spring Break 
assisted elderly, low income and special needs persons with debris 
removal, check and repair of safety/security devices, and installation 
of smoke detectors. Over 250 volunteers turned out and assisted 110 
families in New Hanover County and the City of Wilmington. Over 60 
smoke detectors were installed, more than 60 batteries were installed 
in existing smoke detectors, over 30 exterior light bulbs were 
installed, a wheel chair ramp was painted, a deck was built for a ramp, 
and over 50 yards were cleared of debris. Disaster preparedness 
information was also distributed to all of these families. This was a 
collaborative effort among the County, City, FEMA, the Corporation for 
National Service and students from UNC at Wilmington.
February 1998 Activities
    FEMA Pilot Classes: Two FEMA pilot classes were held in the 
community. One of the classes was `` When Your Job Is A Disaster'', 
which deals with forming partnerships, communication, following-up, 
dealing with emotional people, and taking care of yourself. The second 
class is ``Managing After A Disaster'', which deals with similar topics 
as the previous course and allows students to work on strategies. These 
course were well received by the community and are available through 
FEMA.
                               __________
                       Keys to Hurricane Survival
    This material is provided as a public service. Its purpose is to 
increase hurricane awareness. The key to survival is advance 
preparation.
                      before a hurricane threatens
Elevation of Your Home Above Sea Level
    Get this information from local Emergency Management officials. 
Your nearest Weather Service office can supply flood-stage data for 
area streams and waterways. Find out if your home is subject to storm 
surge (tidal) flooding.
Maximum Storm Surge Which Might Occur
    Information about the potential for inland flooding and storm surge 
is available through your local Emergency Management Office.
Route to Safety If You Have to Leave
    Plan your escape route early. Check with Emergency Management for 
low points and flooding history of your route.
    Check the number of hours it could take you to evacuate to a safe 
area during peak evacuation traffic.
Location of Nearest Official Shelter
    Emergency Management can give you the location of the shelter 
nearest your home and explain what you should bring with you.
    Plan for your family's safety. Know how to contact family members 
should the need arise.
How Safe is Your Home?
    Near the seashore, plan to relocate during a hurricane emergency. 
If you live in a mobile home, always plan to relocate.
    The Inventory of Your Property A complete inventory of personal 
property will help in obtaining insurance settlements and/or tax 
deductions for losses. Inventory checklists can be obtained from your 
insurance representative.
    Don't trust your memory. List descriptions and take pictures. Store 
these and other important insurance papers in waterproof containers or 
in your safety deposit box.
What Your Insurance Will Cover
    Review your insurance policies and your coverage to avoid 
misunderstanding later. Take advantage of flood insurance. Separate 
policies are needed for protection against wind and flood damage, which 
people frequently don't realize until too late.
                         when a watch is issued
Monitor storm reports on radio and television.
    If considering moving to a shelter, make arrangements for all pets. 
Pets are not allowed in shelters.
    Refill needed prescriptions.
    If evacuation has not already been recommended, consider leaving 
the area early to avoid long hours on limited evacuation routes.
Check Supplies
Transistor Radio With Fresh Batteries
    Radio will be your most useful information source. Have enough 
batteries to last several days. There may be no electricity.
Flashlights, Candles or Lamps, Matches
    Store matches in waterproof container. Have lantern fuel for 
several days. Know how to use safely.
Full Tank of Gasoline
    Never let your vehicle gas tank be less than half-full during 
hurricane season; fill up as soon as a hurricane watch is posted. 
Remember: when there is no electricity, gas pumps won't work.
Canned Goods and NonPerishable Foods
    Store packaged foods which can be prepared without cooking and need 
no refrigeration. There may be no electricity or gas.
Containers for Drinking Water
    Have clean, air-tight containers to store sufficient drinking water 
for several days. The local water supply could be interrupted or 
contaminated.
Materials for Protecting Glass Openings
    Have shutters or lumber for protecting large windows and doors and 
masking tape for use on small windows.
Materials for Emergency Repairs
    Your insurance policy may cover the cost of materials used in 
temporary repairs, so keep all receipts. These will also be helpful for 
any income tax deductions.
                        when a warning is issued
Listen Constantly to Radio or TV
    Keep a log of hurricane position, intensity and expected landfall. 
Discount rumors. Use telephone sparingly.
If You Live in a Mobile Home
    Check tie-downs and leave immediately for a safer place. Mobile 
homes are not safe in hurricane force winds.
Prepare for High Winds
    Brace your garage door. Lower antennas. Be prepared to make 
repairs.
Anchor Objects Outside
    Garbage cans, awnings, loose garden tools, toys and other loose 
objects can be deadly missiles. Anchor securely or bring indoors.
Protect Windows and Other Glass
    Board up or shutter large windows securely. Tape exposed glass to 
reduce shattering. Draw drapes across windows and doors to protect 
against flying glass if shattering does occur.
Move Boats on Trailers Close to House
    Fill boats with water to weigh them down. Lash securely to trailer 
and use tie-downs to anchor trailer to the ground or house.
Check Mooring Lines of Boats in Water, Then Leave Them
Store Valuable and Personal Papers
    Put irreplaceable documents in waterproof containers and store in 
highest possible spot. If you evacuate be sure to take them with you.
Prepare for Storm Surge, Tornadoes and Floods
    Storm surge, tornadoes and flash floods are the worst killers 
associated with a hurricane. In a tornado warning, seek inside shelter 
below ground level. If outside, move away at right angles from tornado; 
if escape is impossible, lie flat in a ditch or low spot. The surge of 
ocean water plus flash flooding of streams and rivers due to torrential 
rains combine to make drowning the greatest cause of hurricane deaths.
Check Your Survival Supplies Once Again.
                          if you stay at home
Stay Indoors
    In an inside room away from doors and windows. Don't go out in the 
brief calm during passage of the eye of the storm. The lull sometimes 
ends suddenly as winds return from the opposite direction. Winds can 
increase in seconds to 75 mph or more.
Protect Property
    Without taking any unnecessary risks, protect your property from 
damage. Temporary repairs can reduce your losses.
Stay Away From Windows and Glass Doors
    Move furniture away from exposed doors and windows.
Keep a Continuous Communications Watch
    Keep radio or television tuned for information from official 
sources. Unexpected changes can sometimes call for last minute 
relocations.
Remain Calm
    Your ability to meet emergencies will help others.
                          if you must evacuate
    Know Where You Are Going . . . Leave Early, In Daylight If 
Possible. Move Your Most Valuable Possessions That You Can't Take with 
You To Higher Points Within Your Home
For Shelters
    Take blankets or sleeping bags, flashlights, special dietary foods, 
infant needs and lightweight folding chairs.
    Register every person arriving with you at the shelter.
    Do not take pets, alcoholic beverages or weapons of any kind to 
shelters.
    Be prepared to offer assistance to shelter workers if necessary, 
and stress to all family members their obligations to keep the shelter 
clean and sanitary.
Don't Travel Farther Than Necessary
    Roads may be jammed. Don't let your stranded auto become your 
coffin.
Lock Windows and Doors
    Turn off gas, water, electricity. Check to see that you have done 
everything to protect your property from damage and loss.
Carry Along Survival Supplies
    <bullet>  First Aid Kit;
    <bullet>  Canned or dried provisions, can opener, spoons, etc.;
    <bullet>  Bottled water;
    <bullet>  Extra family medication, prescriptions;
    <bullet>  Spare eyeglasses, hearing aid and batteries, if required.
Keep Important Papers with You at All Times
    <bullet>  Driver's License and other identification;
    <bullet>  Insurance policies;
    <bullet>  Property inventory;
    <bullet>  Medic-alert or device with special medical information.
    <bullet>  Maps to your destination
Take Warm Protective Clothing After the Hurricane
    If you are evacuated, delay return until recommended or authorized 
by local authorities.
Beware of Outdoor Hazards
    Watch out for loose or dangling power lines, and report them 
immediately, to proper authorities. Many lives are lost by 
electrocution.
Walk or Drive Cautiously
    Debris-filled streets are dangerous. Snakes and poisonous insects 
may be a hazard. Washouts may weaken road and bridge structures which 
could collapse under vehicle weight.
Guard Against Spoiled Food
    Food may spoil if refrigerator power is off more than a few hours. 
Freezers will keep food several days if doors are not opened after 
power failure but do not refreeze food once it begins to thaw.
Do Not Use Water Until Safe
    Use your emergency supply or boil water before drinking until 
official word that the water is safe. Report broken sewer or water 
mains to proper authorities.
Take Extra Precautions to Prevent Fire
    Lowered water pressure in city and town water mains and the 
interruption of other services may make fire fighting extremely 
difficult after a hurricane.
                              the recovery
Insurance
    Insurance representatives will be on the scene immediately 
following a major disaster to speed up the handling of claims. Notify 
your insurance agent or broker of any losses--and leave word where you 
can be contacted.
Take Steps to Protect Property
    Make temporary repairs to protect property from further damage or 
looting. Use only reputable contractors (sometimes in the chaotic days 
following a disaster, unscrupulous operators will prey on the 
unsuspecting--check the Better Business Bureau. Keep all receipts for 
materials used.
Be Patient
    Hardship cases will be settled first by insurance representatives. 
Don't assume your settlement will be the same as your neighbor's. 
Policy forms differ and storm damage is often erratic.
It Takes a Team Effort
    Responsibility for the clean-up falls to numerous local, State and 
Federal agencies. A local disaster coordinator/director or his 
representative will be on hand to help residents in this effort.
                               __________
                         American Public Works Association,
                    1301 Pennsylvania Avenue NW, Suite 501,
                          Washington, DC 20004-1701, July 22, 1998.

    Senator James Inhofe, Chairman,
    Senator Bob Graham, Ranking Minority Member,
    Subcommittee on Clean Air, Wetlands, Private Property, and Nuclear 
Safety,
    Committee on Environment and Public Works,
    U.S. Senate,
    Washington, DC 20510-6175.

    Dear Senators: The American Public Works Association strongly 
supports passage of the ``Robert T. Stafford Disaster Relief and 
Emergency Assistance Act'' and pledges to work with you to see that the 
provisions of that Act lead to effective predisaster mitigation 
programs. APWA has worked long and hard to raise awareness among 
stakeholders about the critical role of public works agencies and 
professionals in the disaster arena--not just in disaster clean up and 
repair, but also in predisaster mitigation. We commend you for taking 
on this vitally important work on behalf of our cities and citizens.
    The American Public Works Association is an international 
professional association of individuals, agencies and companies from 
the public and private sector dedicated to providing public works 
services of the highest possible quality to the communities they serve. 
APWA is the largest and oldest organization of its kind in the world 
with headquarters In Kansas City, Missouri, and over 26,000 members in 
67 chapters throughout North America. APWA provides a forum in which 
public works professionals can exchange ideas, improve professional 
competencies, increase the efficiencies of their agencies and 
companies, and bring important public works-related topics to the 
public notice in local, State, and Federal arenas.
    This Association has a long-standing relationship with the Federal 
Emergency Management Agency and will continue to work closely with that 
agency, as well as with the National League of Cities and other key 
stakeholders to develop and implement sensible, effective disaster 
mitigation programs.
    For these reasons, we are especially supportive of provisions in 
the bill to:
    <bullet>  evaluate after 18 months the implementation of 
predisaster mitigation and make recommendations for a process to 
transfer more authority to States and localities for administering the 
program and a process for considering private sector predisaster 
mitigation initiatives;
    <bullet>  establish a cost estimation procedure to determine how 
much is being spent by Federal, State and local levels to respond to 
disasters, as well as how much is being spent on mitigation;
    <bullet>  have the OCC conduct a study to examine the effectiveness 
of this hazard mitigation program, including a review of its goals and 
objectives, the cost benefit in terms of mitigation, disaster 
avoidance, and dollars saved and report this to Congress within 3 
years;
    <bullet>  have the OCC estimate the reduction in Federal disaster 
assistance resulting from implementation of the Act;
    <bullet>  determine the current and future availability of disaster 
insurance for public infrastructure; and
    <bullet>  examine analytically the major disasters and emergencies 
which have been declared since 1974, describing the implied criteria 
for these declarations and how they have changed over time, and make 
recommendations for appropriate future criteria that should be 
considered when making disaster and emergency declarations under the 
Stafford Act.
    The American Public Works association plans to continue its role as 
a leader in disaster preparedness, and we believe this legislation is a 
key component in our efforts. We urge you to enact the ``Robert T. 
Stafford Disaster Relief and Emergency Assistance Act.''
    Thank you for your time and consideration of this important issue.
            Sincerely,
                                   Robert Albee, President,
                                 American Public Works Association.
                               __________
    Statement of the Association of State Floodplain Managers, Inc.
    The Association of State Floodplain Managers, Inc., has 
enthusiastically supported predisaster mitigation efforts as the best 
and most effective means of reducing both disaster-related losses and 
costs. The National Flood Insurance Program (NFIP) is often cited as a 
fundamental predisaster mitigation measure in effect in nearly 19,000 
jurisdictions. Our membership includes the NFIP State Coordinators and 
local officials who administer the program. We have direct experience 
with State and local economic, development and political considerations 
associated with reducing future flood losses.
    The Association supports the Federal Emergency Management Agency 
(FEMA) in its efforts to promote mitigation as the key to breaking the 
build-damage-rebuild-damage again cycle to yield long-term benefits, 
including the Hazard Mitigation Grant Program, the Flood Mitigation 
Assistance Program and the Project Impact initiative. We look forward 
to further developing appropriate roles for State floodplain and 
emergency management officials.
    We respectfully suggest that the Subcommittee review and consider 
the report and commentary prepared by an ad hoc panel convened by FEMA. 
The report was submitted to the Senate and House Committees on 
Appropriations as required by the fiscal year 1998 appropriations 
measure. The report is a needs-based analysis and cost-effectiveness 
study of mitigation approaches. Importantly, the panel of experts 
developed a statement of principles and strategies that reflect the 
attributes and priorities by which all predisaster mitigation 
alternatives should be measured. This is essential in any comprehensive 
long-term predisaster mitigation program. The panel's primary 
conclusion was that the ``highest priority in mitigation efforts must 
be direct implementation at the local level.''
    ASFPM recognizes and appreciates the serious attention this 
Committee has given to examining mitigation a key to reducing disaster-
related losses and to reducing the huge costs associated with natural 
disasters. We are pleased to have the opportunity to express overall 
support of the draft bill which has resulted from the examination. We 
would, however, like to offer some comments, concerns and suggestions 
which we hope will assist the Committee in achieving the important 
objectives of this proposed legislation.
    Selected comments in order of appearance in the draft follow:
Sec. 103 Disaster Assistance Plans.
(d) Grants for Disaster Assistance and Hazard Identification
    (1) Unfortunately, no requirement of a local predisaster mitigation 
plan is included. States should not be required to develop lists of 
specific projects, but instead should focus on establishing categories 
and mechanisms for identifying priorities. Development of specific 
mitigation plans should be done at the local level. Mitigation planning 
funds should support development of local mitigation plans.
    (2) We question the inclusion of ``testing and application of 
improved floodplain mapping technologies'' as an eligible activity. 
Other mechanisms already exist by which FEMA engages in agreements, 
contracts and partnerships with the public and private sectors to cost-
share development and testing of new floodplain mapping technologies. 
It is not appropriate to use this program to support new mapping 
technologies, especially since that would be likely to divert important 
funding support for State mitigation planning and action to private 
sector enterprise.
Sec. 203 Predisaster Hazard Mitigation.
    (c) (1) Purpose of Assistance We recommend that mitigation planning 
be mentioned specifically as a necessary part of disaster mitigation, 
making it clear that planning is an eligible activity for grant 
support.
    (e) (1-7) Criteria ASFPM believes that the articulation of criteria 
for project eligibility is important. The Association is particularly 
appreciative of (7) such other criteria as the President establishes in 
consultation and coordination with State and local governments. We look 
forward to working with the Federal and State governments to develop 
other helpful guidelines. An example of a suggestion we would make is 
that there should be a requirement that any community subject to 
flooding should be compliant with floodplain management requirements of 
the NFIP in order to be eligible.
(h) Local Governments
    (2) ``delegate the decisions to local governments'' While we fully 
endorse the delegation of local plan decisionmaking to local officials, 
it is important that the President and State governments assist local 
governments through financial support and technical assistance. Locally 
developed and driven planning and implementation is key to successful 
mitigation, but often financial support and technical assistance is 
necessary.
    We would urge adding language to specify that, ``The President and 
the States shall assist local governments to develop and implement 
mitigation options and plans.''
(i) Authorization of Appropriations
    While we are very pleased to see the program authorized for a 5 
year period, we note with concern that funding provided would decline 
in years 3, 4, and 5 of the authorized period. While the damage 
reduction resulting from mitigation can be expected to reduce need for 
predisaster mitigation efforts over time, it would certainly not be 
significantly reduced in 2 years or even 5 years. This is an important 
investment in future loss reduction, but significant results do require 
a constant level of funding.
    We particularly applaud the Subcommittee language requiring 
evaluation of the impact of this legislation. We suggest that the 
authorized funding level not decrease, but that the Congress use the 
evaluation to make appropriate decisions about future program 
direction.
(j) Authorization of Section 404 Funds
    ASFPM supports rolling in unobligated funds available under Section 
404. Defining such funds by a 30 month cutoff of obligation may be too 
arbitrary. FEMA can rapidly become severely understaffed simply as a 
function of the magnitude and frequency of disasters. It would be 
unfair to communities with applications pending under Section 404 to 
have those funds automatically evaporate simply because FEMA was unable 
to process paperwork. ASFPM suggests that the intent is good, but that 
FEMA should work with its partners to establish in regulation such a 
cutoff, with provision for extraordinary circumstances.
    Establishment of Predisaster Mitigation Fund.
    The Association believes that the process of using both 
appropriated funds and rolled in unobligated moneys from Section 404 
points to the need for a separate Predisaster Mitigation Fund. This 
would permit accounting clarity for the President and the Congress in 
tracking funds supporting predisaster mitigation.
    A new subsection (k) could establish a fund for providing grants 
under this section. The fund would be credited with appropriations 
(authorized under subsection (i) and already appropriated assistance 
under Section 404 of the Stafford Act (post-disaster mitigation 
assistance) that has not been obligated within a reasonable period to 
be determined by regulation.
Section 106. Interagency Task Force
    ASFPM is enthusiastically supportive of coordinating implementation 
of predisaster mitigation through an Interagency Task Force. We are in 
full agreement with the Committee that this Task Force should be 
chaired by the FEMA Director.
Section 107. Maximum Contribution for Mitigation Costs
(a) In General
    ASFPM fully agrees with the change to 20 percent.
Section 202. Assistance to Repair, Restore, Reconstruct, or Replace 
        Damaged Facilities
(C) Large In-Lieu Contributions
    If such ``in-lieu'' contributions are used, the recipient (State, 
local government or private nonprofit facility) should make certain 
that the contribution supports only restoration, expansion or 
construction that reduces or minimizes the hazard risk.
Section 208. Study Regarding Disaster Insurance for Public 
        Infrastructure
    ASFPM supports a GAO study of insurance for public infrastructure. 
We suggest that the study be broadened or a separate companion study be 
added to look at other aspects of reducing infrastructure damage and 
costs. An example would be evaluation of design and construction 
techniques in various parts of the country that have proven to be 
resistant to damage from natural hazards.
    The companion study could be tasked with evaluating public 
infrastructure facilities located in declared disaster areas subject to 
flooding or other damage. The evaluation would identify and document 
design and construction elements that contributed to the ability of 
those facilities to withstand disaster damage. Public infrastructure 
facilities would include roads, bridges, culverts, water supply 
facilities, wastewater treatment plants, pump stations, distribution 
services for public utilities and recreational facilities.
                       additional recommendation
Post-Flood Disaster Verification of Flood Hazard Maps
    Often, actual floods point out the need to verify and improve flood 
hazard maps. In order to capture this ``real world'' verification, it 
is important for FEMA to be able to deploy resources and examine field 
information. The following language would give FEMA clear authority to 
do so in the post-disaster period.
    Title IV (44 U.S.C. 55170a) is amended by adding at the end----
    ``(5) in areas affected by flooding, investigate the causes and 
extent of flooding to verify and improve available information and 
flood hazard mapping.''
    The Association of State Floodplain Managers, Inc. is pleased to 
have the opportunity to express its overall support of this 
Subcommittee's efforts to address the long term costs of disasters. 
ASFPM and its State chapters represent over 3,500 professionals engaged 
in all aspects of floodplain management and hazard mitigation. Our 
members work daily with cities, towns and counties that are struggling 
with pressure to build in flood hazard areas, working to rebuild more 
wisely after floods and planning to implement new programs and 
undertake mitigation projects.

                                  <all>

</pre></body></html>
